<html>
<title> - RAISING THE BAR: HOW EDUCATION INNOVATION CAN IMPROVE STUDENT ACHIEVEMENT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
     RAISING THE BAR: HOW EDUCATION INNOVATION CAN IMPROVE STUDENT 
                              ACHIEVEMENT

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 14, 2013

                               __________

                            Serial No. 113-4

                               __________

  Printed for the use of the Committee on Education and the Workforce


                   Available via the World Wide Web:
      http://www.gpoaccess.gov/congress/house/education/index.html
                                   or
            Committee address: http://edworkforce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
78-695                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c0a7b0af80a3b5b3b4a8a5acb0eea3afadee">[email&#160;protected]</a>  


                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Tom Price, Georgia                   Ruben Hinojosa, Texas
Kenny Marchant, Texas                Carolyn McCarthy, New York
Duncan Hunter, California            John F. Tierney, Massachusetts
David P. Roe, Tennessee              Rush Holt, New Jersey
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Timothy H. Bishop, New York
Brett Guthrie, Kentucky              David Loebsack, Iowa
Scott DesJarlais, Tennessee          Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Jared Polis, Colorado
Trey Gowdy, South Carolina           Gregorio Kilili Camacho Sablan,
Lou Barletta, Pennsylvania             Northern Mariana Islands
Martha Roby, Alabama                 John A. Yarmuth, Kentucky
Joseph J. Heck, Nevada               Frederica S. Wilson, Florida
Susan W. Brooks, Indiana             Suzanne Bonamici, Oregon
Richard Hudson, North Carolina
Luke Messer, Indiana

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                     TODD ROKITA, Indiana, Chairman

John Kline, Minnesota                Carolyn McCarthy, New York,
Thomas E. Petri, Wisconsin             Ranking Minority Member
Virginia Foxx, North Carolina        Robert C. ``Bobby'' Scott, 
Kenny Marchant, Texas                    Virginia
Duncan Hunter, California            Susan A. Davis, California
David P. Roe, Tennessee              Raul M. Grijalva, Arizona
Glenn Thompson, Pennsylvania         Marcia L. Fudge, Ohio
Martha Roby, Alabama                 Jared Polis, Colorado
Susan W. Brooks, Indiana             Gregorio Kilili Camacho Sablan,
                                       Northern Mariana Islands
                                     Frederica S. Wilson, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 14, 2013................................     1

Statement of Members:
    McCarthy, Hon. Carolyn, ranking minority member, Subcommittee 
      on Early Childhood, Elementary and Secondary Education.....     3
        Prepared statement of....................................     5
    Rokita, Hon. Todd, Chairman, Subcommittee on Early Childhood, 
      Elementary and Secondary Education.........................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Bailey, John, executive director, Digital Learning Now.......     6
        Prepared statement of....................................     8
    Sagues, Holly, chief policy officer, Florida Virtual School..    17
        Prepared statement of....................................    19
    Shelton, Jim, Assistant Deputy Secretary for Innovation and 
      Improvement, U.S. Department of Education..................    21
        Prepared statement of....................................    23
    Smith, Preston, CEO and president, Rocketship Education......    13
        Prepared statement of....................................    15

Additional Submission:
    Miller, Hon. George, senior Democratic member, Committee on 
      Education and the Workforce:
        Prepared statement of Bob Wise, president, Alliance for 
          Excellent Education....................................    36


                          RAISING THE BAR: HOW
                        EDUCATION INNOVATION CAN
                      IMPROVE STUDENT ACHIEVEMENT

                              ----------                              


                      Thursday, February 14, 2013

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2261, Rayburn House Office Building, Hon. Todd Rokita 
[chairman of the subcommittee] presiding.
    Present: Representatives Rokita, Kline, Petri, Roe, 
Thompson, Roby, Brooks, McCarthy, Scott, Polis, and Wilson.
    Also present: Representative Miller.
    Staff present: Katherine Bathgate, Deputy Press Secretary; 
James Bergeron, Director of Education and Human Services 
Policy; Heather Couri, Deputy Director of Education and Human 
Services Policy; Lindsay Fryer, Professional Staff Member; 
Barrett Karr, Staff Director; Krisann Pearce, General Counsel; 
Mandy Schaumburg, Education and Human Services Oversight 
Counsel; Dan Shorts, Legislative Assistant; Nicole Sizemore, 
Deputy Press Secretary; Alex Sollberger, Communications 
Director; Alissa Strawcutter, Deputy Clerk; Brad Thomas, Senior 
Education Policy Advisor; Tylease Alli, Minority Clerk; Jeremy 
Ayers, Minority Education Policy Advisor; Meg Benner, Minority 
Education Policy Advisor; Kelly Broughan, Minority Education 
Policy Associate; Jody Calemine, Minority Staff Director; 
Tiffany Edwards, Minority Press Secretary for Education; Jamie 
Fasteau, Director of Education Policy; Brian Levin, Minority 
Deputy Press Secretary/New Media Coordinator; Scott Groginsky, 
Minority Education Policy Advisor.
    Chairman Rokita. A quorum being present, the subcommittee 
will come to order. Well, good morning, everyone. And welcome 
to the first hearing of the Subcommittee on Early Childhood, 
Elementary, and Secondary Education in the 113th Congress.
    I would like to thank our witnesses for joining us, first 
off. We appreciate the opportunity to get your perspective on 
the innovative ways schools and education leaders are utilizing 
technology and implementing creative reforms to help raise the 
bar on student achievement.
    And Mrs. McCarthy, before we begin, I would also like to 
say it is an honor to serve with you. I look forward to a great 
term on this committee, a great hearing, first off, and 
everything in between.
    Mrs. McCarthy. Well, thank you. And I am looking forward to 
working with you. We have a great opportunity to work on things 
to make a difference in our children's lives.
    Chairman Rokita. I think so as well. I hope so. And I think 
we have a lot of commonality here, a lot of good 
bipartisanship.
    As a father of two young boys myself, I know today's kids 
learn differently than previous generations. I can tell that by 
the toys that are in our living room versus the toys I had and 
tools I had when I was a kid. They are more adept at 
effortlessly figuring out new technology and seamlessly 
incorporating it into their daily lives.
    Recognizing the wealth of technology now at our fingertips, 
several states are working to alter the way education is 
delivered to students. In Utah and Georgia, for example, state 
leaders have approved extensive online learning programs, with 
coursework that can be used in addition to the education a 
child receives through the traditional methods.
    Now this blended learning model, as it is called, provides 
students face-to-face interaction with a teacher while 
supplementing their education with online instruction. I find 
it fascinating.
    Online coursework has also become increasingly popular for 
students who are interested in classes that may not be offered 
at their current school, or who need additional assistance in 
certain subject areas. As online coursework becomes accepted in 
more states, additional families I think across the country 
will be able to use these digital classes to customize their 
child's education, hopefully at a lesser cost.
    Virtual schools, which are currently offered in twenty-
eight states, provide another option for families seeking 
additional choices. In the 2011-2012 school year, more than 
half a million students were enrolled in virtual schools, 
either part-time or full-time, a 16 percent increase from the 
previous school year.
    For children in rural areas, or whose schools otherwise 
aren't able to fully support their needs, virtual schools 
provide a critical opportunity to keep learning and stay on 
track for graduating fully prepared for college or the 
workforce.
    In my home state of Indiana, if I can brag just a little, 
leaders have taken steps to expand access to blended learning 
programs and virtual schools, including virtual charter 
schools. In 2011, Indiana legislators took action to allow more 
of these innovative online institutions to seek sponsors in 
districts throughout Indiana to start their own public 
programs.
    With 610,000 students currently on charter school wait 
lists, virtual charter schools can provide a lifeline to 
children who are desperate to escape an underperforming school 
but cannot access a brick-and-mortar charter school.
    As we have said many times in this committee, helping 
ensure families can make choices about their children's 
education is the key to strengthening our education system as a 
whole. I applaud the state and local education leaders who have 
embraced digital learning policies, and hope more states and 
school districts will pursue these options in the near future.
    In the past, my colleagues and I have supported policies to 
provide states and school districts additional flexibility to 
allocate funds to help support education innovation. And I look 
forward to continuing exploring similar proposals in the 113th 
Congress, and to a productive conversation this morning about 
the impact of blended learning and other digital education 
technologies on student achievement.
    And of course, I will now recognize my distinguished 
colleague, Mrs. McCarthy, for her opening remarks.
    [The statement of Chairman Rokita follows:]

Prepared Statement of Hon. Todd Rokita, Chairman, Subcommittee on Early 
             Childhood, Elementary and Secondary Education

    As a father of two young boys, I know today's kids learn 
differently than previous generations. They are more adept at 
effortlessly figuring out new technology and seamlessly incorporating 
it into their daily lives.
    Recognizing the wealth of technology now at our fingertips, several 
states are working to alter the way education is delivered to students. 
In Utah and Georgia, for example, state leaders have approved extensive 
online learning programs with coursework that can be used in addition 
to the education a child receives in the traditional classroom. This 
blended learning model provides students face-to-face interaction with 
a teacher while supplementing their education with online instruction.
    Online coursework has also become increasingly popular for students 
who are interested in classes that may not be offered at their current 
school, or who need additional assistance in certain subject areas. As 
online coursework becomes accepted in more states, additional families 
across the country will be able to use these digital classes to 
customize their child's education.
    Virtual schools, which are currently offered in twenty-eight 
states, provide another option for families seeking additional choices 
in education. In the 2011-2012 school year, more than half a million 
students were enrolled in virtual schools either part-time or full-
time, a 16 percent increase from the previous school year. For children 
in rural areas, or whose schools otherwise aren't able to fully support 
their education needs, virtual schools provide a critical opportunity 
to keep learning and stay on track for graduating fully prepared for 
college or the workforce.
    In my home state of Indiana, leaders have taken steps to expand 
access to blended learning programs and virtual schools, including 
virtual charter schools. In 2011, Indiana legislators took action to 
allow more of these innovative online institutions to seek sponsors and 
districts throughout Indiana to start their own public programs. With 
610,000 students currently on charter school wait lists, virtual 
charter schools can provide a lifeline to children who are desperate to 
escape an underperforming school but cannot access a brick-and-mortar 
charter school.
    As we have said many times in this committee, helping ensure 
families can make choices about their children's education is key to 
strengthening our education system as a whole. I applaud the state and 
local education leaders who have embraced digital learning policies, 
and hope more states and school districts will pursue these education 
options in the near future.
    In the past, my colleagues and I have supported policies to provide 
states and school districts additional flexibility to allocate funds to 
help support education innovation. I look forward to exploring similar 
proposals in the 113th Congress, and to a productive conversation this 
morning about the impact of blended learning and other digital 
education technologies on student achievement.
                                 ______
                                 
    Mrs. McCarthy. Thank you. First, let me say that I am 
looking forward to serving with my chairman and working in a 
bipartisan manner on the issues this subcommittee will be 
addressing this Congress.
    I see that our chairman, Mr. Kline and Ranking Member Mr. 
Miller are here. So I don't know whether they are watching us 
or what. But we will show----
    [Laughter.]
    But anyway, I would also like to welcome and thank our 
esteemed panel of witnesses for joining us today. At this point 
of time, there is little doubt that technology has the 
potential to enhance and in many ways redefine the educational 
field.
    Much of today's workforce seamlessly incorporates 
technology in every day work. Moreover, the skill set needed to 
work with technology are no longer considered out of the 
ordinary.
    As such, teachers and school leaders alike must incorporate 
real world technology in education programs nationwide, so 
students can remain competitive in our global economy.
    Earlier, I mentioned that technology has the potential to 
enhance education. And I do not choose that word lightly. 
Technology in the classroom is only helpful if we make a 
legitimate commitment to it. Technology, if used sparingly and 
without proper direction and instruction, can distract and 
deter from the classroom studies.
    We can avoid these pitfalls through fostering teacher and 
school leader improvement and through family engagement, two of 
my priorities this Congress.
    Because students learn at different paces and have varied 
access to technologies in their personal time, it is absolutely 
critical that teachers and school leaders be trained in digital 
learning practices and have the support of legislators at this 
pursuit. Such training must be tailored to work for all 
students, especially our country's most vulnerable populations, 
including those who might not have strong computer skills.
    The federal government has a role to help facilitate such 
investment through appropriations. And equally as important, 
the federal government has a role to listen and heed the advice 
of local teachers and school leaders, who can speak to what 
methods have proven to be effective.
    I cannot emphasize enough the importance of the federal 
government listening to what is working locally. This general 
idea is the cornerstone of legislation that I plan to refresh 
in this Congress. And that is the Teachers at the Table Act.
    In regards to family engagement, I have championed 
legislation that has called for the Department of Education to 
establish an Office of Family Engagement, and for flexibility 
for states to set aside Title I funding to support local 
engagement centers. I believe such flexibility will ultimately 
lead to families becoming more responsive to children's 
studies.
    The more families are engaged, the more likely they are to 
reinforce the skill sets their young ones are learning on a 
daily basis. Technology can lengthen the traditional school day 
in fun, different ways. With well trained educators teaching, 
with innovative devices, and families involved in the process, 
I believe we can realize the potential of technology in 
education.
    I am eager to hear from each of you as the witnesses on 
some state and local initiatives, as well as from Assistant 
Education Secretary Shelton, who I hope can speak to the 
federal approach.
    Thank you.
    And thank you, Mr. Chairman. And I yield back the rest of 
my time.
    [The statement of Mrs. McCarthy follows:]

 Prepared Statement of Hon. Carolyn McCarthy, Ranking Minority Member, 
  Subcommittee on Early Childhood, Elementary and Secondary Education

    Let me begin by saying I am looking forward to serving with my 
Chairman and working in a bipartisan manner on the issues this 
Subcommittee will be addressing this Congress.
    I would also like to welcome and thank our esteemed panel of 
witnesses for joining us today.
    At this point in time, there is little doubt that technology has 
the potential to enhance and in, many ways, redefine the educational 
field.
    Much of today's workforce seamlessly incorporates technology in 
every day work.
    Moreover, the skill-sets needed to work with technology are no 
longer considered out of the ordinary.
    As such, teachers and school leaders alike must incorporate real-
world technology in education programs nationwide so students can 
remain competitive in our global economy.
    Earlier, I mentioned that technology has the ``potential'' to 
enhance education.
    I did not choose that word lightly.
    Technology in the classroom is only helpful if we make a legitimate 
commitment to it.
    Technology, if used sparingly or without proper direction and 
instruction, can distract and deter from classroom aims.
    We can avoid these pitfalls through
    <bullet> fostering teacher and school leader improvement and
    <bullet> through family engagement--two of my priorities this 
Congress.
    Because students learn at different paces and have varied access to 
technologies in their personal time--it is absolutely critical that 
teachers and school leaders be trained in digital learning practices 
and have the support of legislators in this pursuit.
    Such training must be tailored to work for all students--especially 
our country's most vulnerable populations including those who may not 
have strong computer skills.
    The federal government has a role to help facilitate such 
investment through appropriations.
    And equally as important the federal government has a role to 
listen and heed the advice of local teachers and school leaders who can 
speak to what methods have proven to be effective.
    I cannot emphasize enough the importance of the federal government 
listening to what is working locally.
    This general idea is the cornerstone of legislation I plan to 
refresh this Congress--The Teachers at the Table Act.
    In regard to family engagement, I have championed legislation that 
has called for the Department of Education to establish an Office of 
Family Engagement and for flexibility for states to set aside Title I 
funding to support local engagement centers.
    I believe such flexibility will ultimately lead to families 
becoming more responsive to children's studies.
    The more families are engaged, the more likely they are to 
reinforce the skill-sets their young ones are learning on a daily 
basis.
    Technology can lengthen the traditional school day in fun different 
ways.
    With well-trained educators teaching with innovative devices and 
families involved in the process, I believe we can realize the 
potential of technology in education.
    I am eager to hear from each of the witnesses on some state and 
local initiatives as well as from Assistant Deputy Secretary Shelton 
who I hope can speak to the federal approach.
    Thank you.
    Mr. Chairman, I yield back the rest of my time.
                                 ______
                                 
    Chairman Rokita. Thank you, Mrs. McCarthy.
    I also want to welcome all the members of the committee 
here this morning.
    Pursuant to Committee Rule 7-C, all subcommittee members 
will be permitted to submit written statements to be included 
in the permanent hearing record. And without objection, the 
hearing record will remain open for 14 days to allow 
statements, questions for the record and other extraneous 
material referenced during the hearing to be submitted in the 
official hearing record.
    Hearing no objection.
    It is now my pleasure to introduce our distinguished panel 
of witnesses.
    First, Mr. John Bailey is the executive director of Digital 
Learning Now. Mr. Bailey has previously served at the White 
House as special assistant to the president for domestic policy 
during the Bush administration, where he coordinated education 
and workforce policy. He also served as the nation's second 
director of educational technology.
    Mr. Preston Smith is CEO and president of Rocketship 
Education, which he co-founded in San Jose, California, in 
2006. He served Teach for America at Clyde Arbuckle Elementary 
School, where he earned the distinction of teacher of the year. 
He has also served as founding principal of LUCHA Elementary 
School in San Jose.
    Ms. Holly Sagues--good morning--is the chief policy officer 
for Florida Virtual School. Ms. Sagues taught in a traditional 
classroom for 8 years before joining the school in 1998. She 
developed and taught four online courses, and served as chief 
information officer, before assuming her current position as 
chief policy officer.
    And Mr. Jim Shelton, my apologies, sir, I didn't get to 
introduce myself personally to you earlier this morning. Thank 
you for being here. Mr. Shelton is the assistant deputy 
secretary for innovation and improvement at the U.S. Department 
of Education.
    He manages a portfolio that includes most of the 
department's competitive teacher quality, school choice and 
learning technology programs, housed in the Office of 
Innovation and Improvement.
    Before I recognize each of you to provide your testimony, 
let me briefly explain our lighting system. You will each have 
5 minutes to present your testimony. When you begin, the light 
in front of you will turn green. When 1 minute is left, the 
light will turn yellow.
    When your time has expired, the light will turn red. Sounds 
simple, not necessarily for us. [Laughter.]
    At that point, I ask you to wrap up your remarks as best as 
you are able. After everyone has testified, members up here 
will each have 5 minutes to ask questions of the panel.
    So without further ado, I would like to recognize Mr. 
Shelton for 5 minutes.
    Excuse me. Okay. My first meeting as chair here in this 
chair, and I already messed up.
    We are going to go with Mr. Bailey. Thank you.

          STATEMENT OF JIM BAILEY, EXECUTIVE DIRECTOR,
                      DIGITAL LEARNING NOW

    Mr. Bailey. I have always wanted to be Jim, though. 
[Laughter.]
    Members of the subcommittee, thank you for the opportunity 
to address you today. Never in recent history has the work of 
this subcommittee been more important.
    Our nation's economic growth is based increasingly on human 
capital rather than physical capital. As a result, the policies 
and priorities involving education and job training will be 
critical in shaping the future of our country.
    Innovation in business and society is linked to harnessing 
the opportunities offered by new technologies and innovations. 
Technologies have changed virtually every sector from business 
to entertainment to healthcare. Yet our education system 
remains, by and large, the same as it was 100 years ago.
    It is evident that a one-size-fits-all education system 
doesn't fit today's generation of students. Students learn at 
individual paces. They want to be challenged. They want to be 
engaged. And they want an experience personalized just for 
them. But our current system is not offering that.
    Digital learning is a tool that helps fulfill the two great 
premises underlying our nation's education system: providing 
equal access to education opportunities for all students and 
ensuring that those opportunities are high quality. Online 
learning can bring highly effective teachers to students 
wherever they are located. Technologies can help scale courses, 
content, resources, tools and services.
    Former Florida Governor Jeb Bush regularly calls on state 
policy makers and leaders to use these new opportunities 
offered by technology as a catalyst for new models and new 
approaches to learning and to school. It is not about buying 
computers. It is not about adding a layer of technology over 
the current system.
    It is about redesigning schools and classrooms and 
instruction from the ground up with a focus on the individual 
student. Digital learning enables customization and 
personalization of education for each student. Students can 
learn anytime, anywhere, in their own style and at their own 
pace.
    The Internet is challenging any model that has 
traditionally bundled service by offering a dizzying array of 
unbundled alternatives that consumers can assemble in their own 
unique groups. The music industry is a perfect example of this.
    Music traditionally has been bundled into albums. Albums 
were bundled into others and sold at physical stores. Now 
consumers can pick from any one of 20 million songs that are 
individually sold on iTunes, Spotify or Amazon.com, and put 
together their own playlist.
    Education is also subject to those forces. Consider that 
the Florida Virtual School offers more than 120 courses. The 
Khan Academy offers a library of over 3,900 video tutorials on 
everything from arithmetic to physics.
    BetterLesson offers a database of more than 450,000 files 
for teachers and 100,000 complete lesson plans. There are more 
than 3,900 children's ebooks that are soon to be available on 
Scholastic's new Storia app. And the OER Commons offers more 
than 42,000 open education resources. All these being available 
to be unbundled for students' personalized education.
    All this is challenging the way that we think about choice 
and options for students. Digital learning is rapidly opening 
up choices available to students, not just over which 
institutions they attend, but over what courses they can choose 
from on a course by course basis.
    All this is creating new quality opportunities and options 
for students among, within and outside of school.
    The challenge facing the digital learning revolution is 
that we have faced a patchwork of antiquated laws and 
regulations that limit or arbitrarily restrict these 
opportunities for students. These barriers take three primary 
forms:
    The first is limitations. Some states are imposing 
arbitrary caps on the number of students who can enroll in 
online learning. Caps and limitations are a poor substitute for 
a rigorous quality system that measures provider effectiveness 
based on student outcomes, such as completion rates, 
proficiency, student growth and other measures.
    Low performing programs should be shut down. Cyber charter 
school authorizers should use their authority to close down low 
performing charters when not performing.
    Outdated regulations is the second. Digital learning models 
need the flexibility from outdated regulations such as seat 
time and class size restrictions, and they need the freedom to 
provide end of course exams throughout the year.
    And last is finance. Policy makers need to rethink the way 
that we finance K-12 education. Our traditional system finances 
institutions, not learning. As students begin to increasingly 
assemble a portfolio of education from both traditional and 
online providers, the funding must be flexible enough to follow 
the students to the provider of their choice, down to the 
individual course level.
    While most of these barriers best addressed by state and 
local policymakers, there are opportunities for the federal 
government to help accelerate the digital learning revolution.
    First, provide incentives for states to eliminate arbitrary 
barriers to online learning and blended learning. This 
principle has been used in the past with Race to the Top, with 
i3 and with other grants, including the charter schools grants 
to help with funds awarded on a competitive basis to 
incentivize state action.
    Ensure that federal funds follow the student. As school 
choice becomes more and more about not school choice but course 
choice, funding needs to be able to follow a student to a 
traditional school and then to some of the online providers 
that this student selects.
    And we need to modernize our education broadband programs. 
Programs such as the E-rate should be modernized, streamlined 
and better aligned to the reform agendas being put into place 
by our nation's governors. Broadband and modern devices are 
needed to support not just richer digital learning experiences, 
blended learning experiences and online experiences, but also 
for the next generation of assessments that states are putting 
into place.
    It is urgent that we reform our system of education into 
one that prepares each student with the skills they need to 
secure high paying jobs, participate in democracy, and engage 
in the world.
    Thank you very much.
    [The statement of Mr. Bailey follows:]

         Prepared Statement of John Bailey, Executive Director,
                          Digital Learning Now

    Members of the subcommittee, thank you for the opportunity to 
address you today. Never in recent history has the work of this 
subcommittee been more important. Our nation's economic growth is based 
increasingly on human capital rather than physical capital. As a 
result, the policies and priorities involving education and job 
training will be critical in shaping the future of our country.
    In my remarks today, I want to focus on several major digital 
learning trends that are reshaping the way we structure education and 
deliver instruction as well as the policy challenges that limit these 
innovations in helping more students and teachers.

Digital Learning
    Innovation in business and society is linked to harnessing the 
opportunities offered by new technologies. Technology has given us an 
unprecedented around-the-clock access to information and services that 
are changing the way we live and work. Technologies have changed 
virtually every sector from business to entertainment to healthcare. In 
each instance, these digitally enabled revolutions are empowering 
individuals with more information, greater and more convenient access 
to options, and more personalized experiences.
    Yet our education system remains, by and large, the same as it was 
a hundred years ago. Students growing up in an app-based, personalized 
world are confronted by a system of education designed in an industrial 
era based on an agriculture calendar. With so many options in their 
personal lives and so few in their traditional classroom, it's no 
wonder so many students have become disinterested and disengaged in the 
learning process and are dropping out in alarming numbers.
    For example, a recent report from the Center for American Progress 
concluded that many students in the traditional school system are 
simply not being challenged.\1\ Thirty-seven percent of fourth graders 
surveyed throughout the country said their math work is often or always 
too easy. Almost a third of eighth graders reported reading fewer than 
five pages a day for school, and 39 percent of 12th graders said they 
hardly ever write about what they read in class.
---------------------------------------------------------------------------
    \1\ ``Do Schools Challenge Our Students? What Student Surveys Tell 
Us About the State of Education in the United States,'' Ulrich Boser 
and Lindsay Rosenthal, Center for American Progress, July 2010. http://
www.americanprogress.org/wp-content/uploads/issues/2012/07/pdf/state--
of--education.pdf
---------------------------------------------------------------------------
    It's evident that a one-size-fits-all education system doesn't fit 
today's generation of students. Students learn at individual paces. 
They want to be challenged. They want to be engaged. And they want an 
experience personalized just for them. But our current system is not 
offering that.
    Our education system needs fundamental transformation, not just 
incremental improvement. Technology has the power to customize 
education so each and every student learns in his or her own style at 
his or her own pace, which maximizes the chances for success.
    Digital learning is a tool that helps fulfill the two great 
premises underlying our education system: providing equal access to 
educational opportunities for all students and ensuring those 
opportunities are high quality. It holds the promise of extending 
access to rigorous, high quality instruction to every student 
regardless of where they live, income level, or special needs. Truly 
improving student achievement will depend on the ability of our K--12 
system to harness the potential of digital learning.
    Digital learning models also offer an approach to ensure every 
child has a quality education. Online learning can bring highly 
effective teachers to wherever students are located. It can bring 
quality books and text to assist with student literacy. Digital 
learning models are often held to higher quality standards than 
traditional courses, where they are paid only after a student completes 
a course and passes an assessment.
    Former Florida Governor Jeb Bush regularly calls on state leaders 
to use the new opportunities offered by technology as a catalyst for 
new models and approaches to learning. It is not about buying 
computers. It is not about spending more money without changing the 
system. It is not about adding a layer of technology over the current 
system. It is about redesigning schools from the ground up with a focus 
on the individual student.
    Digital learning enables customized and personalized education for 
each student. Students can learn anytime, anywhere, in their own style 
and at their own pace. They can advance to the next level or grade when 
they are ready, not when the class on average is ready. Advanced 
students will not get bored and struggling students will not get left 
behind.
    Digital learning empowers teachers with real-time data so they can 
pinpoint weaknesses and differentiate instruction to address them.
    Digital learning expands opportunities and options for students. It 
provides access to classes for students that might not otherwise have 
the opportunity to take them, such as Advanced Placement. It gives 
rural students access to world-class instructors for courses that would 
not otherwise be available.
    What is holding us back from experiencing this digital revolution 
isn't technology. It is that we're not modernizing our laws and 
regulations to allow teachers and students to take full advantage of 
these new digital models of learning.
    Most state laws never envisioned a time when a student in 
Pennsylvania could take a course taught by a teacher in Florida through 
a charter school model that was developed in California.
    Instead of technology disrupting the system to create new models, 
our entrenched system has constrained technology and forced it to 
conform to our old models. We need to change that. We need to create 
the policy, funding, and regulatory space for these innovations to be 
tried, evaluated, and when successful, scaled.
    In 2010, former Florida Governor Jeb Bush and former West Virginia 
Governor Bob Wise co-chaired the convening of the Digital Learning 
Council to define the policies that will integrate current and future 
technological innovations into public education. The Digital Learning 
Council united a diverse group of more than 100 leaders from education, 
government, philanthropy, business, technology, and think tanks to 
develop the roadmap of reform for local, state and federal 
policymakers. This work produced a consensus around the 10 Elements of 
High Quality Digital Learning which were released at the 2010 
Excellence in Action National Summit on Education Reform in Washington, 
D.C.
    Digital Learning Now! is a national campaign to advance policies 
that will create a high quality digital learning environment to better 
prepare students with the knowledge and skills to succeed in college 
and careers. Our work is focused on building support for the 10 
Elements of High Quality Digital Learning, which provides a roadmap for 
reform for lawmakers and policymakers to integrate digital learning 
into education.\2\
---------------------------------------------------------------------------
    \2\ Digital Learning Now, http://www.digitallearningnow.com/
---------------------------------------------------------------------------
The Unbundling of Education
    Two of the most exciting areas within digital learning is the 
growth around online learning courses and resources as well as blended 
learning.
    To understand the opportunities and challenges offered by digital 
learning, one has to fully appreciate the broader change being 
introduced by the Internet. The sectors and business models that have 
been most disrupted by the Internet are those that serve bundled 
services. The Internet is challenging any model that has traditionally 
bundled service by offering a dizzying array of unbundled alternatives 
that consumers can bundle on their own.
    We have seen these forces at work most notably in the music 
industry. Music has traditionally been bundled into albums, and albums 
were bundled with others and sold at physical stores. Consumers were 
limited to what was available at the store and had to buy an entire 
bundle to get the one or two songs they wanted. Now, innovations like 
iTunes and other music services are unbundling albums by allowing 
consumers to purchase individual songs and create their own playlists. 
Instead of being required to buy an entire album, consumers are free to 
pay for only what they want. And instead of being limited to only the 
music available in a store, consumers now can pick from 20 million 
songs available on iTunes, Spotify, or Amazon.com's music service.
    Education is also subjected to these same forces. The Internet is 
making it easier and cheaper to not only access resources but 
distribute content including textbooks, data, videos, lessons, and 
entire courses. When combined with new web-based tools and cloud-based 
systems, students have more educational opportunities than ever before.
    Consider that the Florida Virtual School offers more than 120 
courses. The Khan Academy offers a library of over 3,900 video 
tutorials on everything from arithmetic to physics. BetterLesson's 
database holds more than 450,000 files and 100,000 complete lesson 
plans. There are more than 3,900 children's ebooks available on 
Scholastic's new Storia app. And the OER Commons offers more than 
42,000 open education resources and tools.
    All of this is challenging the way we think about choice and 
options. We traditionally think of school choice as institutions that 
bundled education services: traditional schools, magnet schools, public 
charter schools, and private schools. The choice has traditionally been 
about selecting one institution over another--in essence, picking one 
album of music over another. Digital learning is rapidly opening up 
opportunities to unbundle these education services and courses. As a 
result, the choice available to students is not just over which 
institutions do they attend but what courses they can choose from on a 
course by course basis. All of this is creating new quality options for 
students among, within, and outside of school.
    To illustrate this, consider a pioneering law in Utah that was 
passed in 2011. Legislators and advocates drew upon Digital Learning 
Now's 10 Elements of High Quality Digital Learning to develop a policy 
that drives choice to the course level where students can select 
courses offered by multiple public and private providers throughout the 
state. The law allows dollars to follow students to the course of their 
choice. The law does not cap participation, and importantly, it funds 
success rather than just seat time. A pay for performance element 
allows online-course providers to receive 50 percent of the state's 
per-pupil funds for a given online course up front and the remaining 50 
percent only when a student successfully completes the course. It is a 
bold policy that seeks to not only expand options but also tie public 
education expenditure to student success.
    Louisiana offers another example thanks to the recent passage of 
Gov. Bobby Jindal's sweeping education reform package. Students will 
have the option to select courses from a state approved catalog as part 
of the new ``Course Choice'' program. The law also specifies that funds 
must follow the student to the online course with providers paid in 
part based on completion of the course, not just enrollment. Students 
in schools that receive C, D, or F grades in the state's accountability 
system are eligible to select courses. Students in A and B schools can 
participate too if schools they attend don't offer the classes or if 
the school allows them to opt into a course.

Blended Learning
    This trend of unbundled courses and content is also driving a new 
innovation commonly referred to as blended learning. This broad term 
covers a number of models that operate under a single umbrella 
definition. First, the student learns in a supervised brick-and-mortar 
location away from home at least some of the time. Second, the student 
experiences online delivery with some control over the time, place, 
path, and/or pace.\3\ In essence blended learning is about combining 
the best of face-to-face instruction with the best of online courses, 
content, and systems.
---------------------------------------------------------------------------
    \3\ ``Classifying K-12 Blended Learning,'' Heather Staker and 
Michael B. Horn, Innosight Institute, May 2012 http://
www.innosightinstitute.org/media-room/publications/education-
publications/classifying-k-12-blended-learning/
---------------------------------------------------------------------------
    Today's typical classrooms are most often marked by a single 
teacher teaching to a group of students. The challenge is that the 
teacher inevitably has to ``teach to the middle'' which means some 
students that could progress faster are held back and those that are 
struggling fall further behind. Teachers often want to differentiate 
their instruction for their students, but it becomes practically 
impossible given the time constraints and limitations of resources.
    Blended learning blows up this model by using sophisticated 
technology which is able to assess where each student is on a learning 
progression toward challenging college and career standards and then 
develop a customized playlist of activities and assignments. These 
systems often suggest small group assignments for students and also 
flag students who need more one on one attention. Teachers are still 
essential in this model, but their time is better spent working with 
the students who need more support and helping to facilitate the work 
in the smaller groups. Technology does not replace the teacher in this 
model. Instead, it empowers the teacher with better data and with the 
chance to better use the scarce time they have with the students they 
have.
    The Innosight Institute is maintaining a growing catalog of these 
models.\4\ One thing is clear. These student-centric, flexible, and 
results-based blended learning models are demonstrating success in some 
of our most challenging and chronically underperforming school systems. 
Often, these schools are taking advantage of the innovations offered by 
blended learning technology platforms and combining them with the 
regulatory freedom offered under charter school laws and other teacher 
reforms to develop entirely new models of education.
---------------------------------------------------------------------------
    \4\ Innosight Institute's Blended Learning Universe database, 
February 2013, http://www.innosightinstitute.org/media-room/
publications/blended-learning/database/
---------------------------------------------------------------------------
Delivering Results
    These new innovations are still relatively new but early results 
are promising.
    <bullet> In 2009, the U.S. Department of Education published a 
meta-analysis of evidence-based studies of K-12 and postsecondary 
online learning programs and found that ``students who took all or part 
of their class online performed better, on average, than those taking 
the same course through traditional face-to-face instruction. * * * In 
addition, online learning has the potential to improve productivity and 
lower the cost of education, reducing the burden on taxpayers.'' \5\
---------------------------------------------------------------------------
    \5\ ``U.S. Department of Education, Office of Planning, Evaluation, 
and Policy Development, Evaluation of Evidence-Based Practices in 
Online Learning: A Meta-Analysis and Review of Online Learning Studies, 
Washington, D.C., 2010. http://www2.ed.gov/rschstat/eval/tech/evidence-
based-practices/finalreport.pdf
---------------------------------------------------------------------------
    <bullet> Rocketship Education is the leading public school system 
for low-income elementary students based on California assessment 
results. An SRI study examined the progress of nearly 600 students and 
found that students who had greater access to adaptive learning 
platforms achieved significant gains in overall mathematics scores.\6\
---------------------------------------------------------------------------
    \6\ ``Evaluation of Rocketship Education's Use of DreamBox 
Learning's Online Mathematics Program,'' SRI International, August 
2011: http://www-static.dreambox.com/wp-content/uploads/downloads/pdf/
DreamBox--Results--from--SRI--Rocketship--Evaluation.pdf
---------------------------------------------------------------------------
    <bullet> KIPP Empower Academy's kindergartners showed impressive 
mastery of all subjects by the end of the 2010-11 school year. At the 
beginning of the 2010-2011 school year, 36% of KEA kindergartners were 
reading at a proficient or advanced level as measured by the STEP 
literacy assessment. By the end of the year, 96% were proficient or 
advanced on the STEP.\7\
---------------------------------------------------------------------------
    \7\ ``Year One Results,'' KIPP Empower, 2011: http://
www.kippla.org/empower/Year-One-Results.cfm
---------------------------------------------------------------------------
    <bullet> The blended learning system Read180 is helping students 
achieve up to two years of academic growth in one year. A rigorous 
evaluation that met the high standards set by the U.S. Department of 
Education's What Works Clearinghouse found that the program delivered 
real results.\8\
---------------------------------------------------------------------------
    \8\ ``Scholastic Read 180 Intervention Report,'' IES What Works 
Clearinghouse, October 2009: http://ies.ed.gov/ncee/wwc/
interventionreport.aspx?sid=571; Striving Readers Program Evaluation, 
U.S. Department of Education, November 2011 http://www2.ed.gov/
programs/strivingreaders/index.html
---------------------------------------------------------------------------
    <bullet> A randomized controlled study that met the What Works 
Clearinghouse standards found that students attending schools that 
offered a specific online Algebra I course scored higher on the 
assessment than those enrolled in a traditional class. Even more 
impressive is that the study also found positive effects on future 
advanced mathematics course taking: in schools that offered the online 
Algebra I course, 51% of the eligible students went on to participate 
in an advanced mathematics course sequence by tenth grade, compared 
with 26% of eligible students in control schools.\9\
---------------------------------------------------------------------------
    \9\ ``Quick Review of the Report 'Access to Algebra I: The Effects 
of Online Mathematics for Grade 8 Students,''' IES What Works 
Clearinghouse, March 2012: http://ies.ed.gov/ncee/wwc/pdf/quick--
reviews/algebra--032712.pdf
---------------------------------------------------------------------------
Digital Learning Barriers
    The challenge facing the digital learning revolution is a patchwork 
of antiquated laws and regulations that limit or arbitrarily restrict 
these opportunities for students. Policymakers at the federal and state 
levels must reduce the barriers to innovation that further inhibit a 
student from receiving a high-quality education through digital 
learning models.\10\ The barriers take three forms:
---------------------------------------------------------------------------
    \10\ For more information on state barriers to digital learning, 
visit the state-by-state report card provided at Digital Learning Now: 
http://www.digitallearningnow.com/nations-report-card/
---------------------------------------------------------------------------
    1. Limitations: Some states are imposing arbitrary caps on the 
number of students who can enroll in an online course, the number of 
online courses that they can enroll in, or where they can take an 
online course from. Massachusetts imposes limits on the number of 
online schools that can be approved in the state as well as various 
arbitrary student enrollment restrictions. Arkansas has a cap on the 
number of students that can enroll in a virtual school even though 
there is a longer waiting list. Caps and limitations are a poor 
substitute for a rigorous quality system that measures provider 
effectiveness based on student outcomes such as completion rates, 
proficiency, student growth, and other measures. States should leverage 
the lessons learned from developing multiple outcome measures for 
school accountability and the multiple measures used to measure teacher 
effectiveness to better measure the success of online programs. Low 
performing programs should be shut down. Cyber charter school 
authorizers should use their authority to close low performing cyber 
charters.
    2. Outdated Regulations: If policymakers wish to provide modern 
learning options to students, they will need to modernize their 
regulations which were mostly developed in the 19th and 20th centuries 
and still assume education takes place in a traditional school. Digital 
learning models need flexibility from outdated regulations such as seat 
time and class size restrictions and they need the freedom to provide 
end of course exams throughout the year. States such as Ohio and 
Pennsylvania have used ``innovation waivers'' to eliminate regulations 
that hold back innovation and better services for students.
    3. Finance: Policymakers need to rethink the way we finance K-12 
education. Our traditional approach finances institutions, not 
learning. As students begin to increasingly assemble an education 
portfolio with both traditional and online providers, the funding must 
be flexible enough to follow the student to the provider of their 
choice, down to the individual course level.
    While most of these are barriers best addressed by state and local 
policymakers, there are opportunities for the federal government to 
help accelerate the digital learning revolutions.

    1. Provide incentives for states to eliminate arbitrary barriers to 
online and blended learning. This principle has been used in most 
federal competitive grant programs with funds awarded based on state 
action. However, few of these programs address online and blended 
learning. For example, while Race to the Top provided an incentive for 
states to eliminate arbitrary charter school caps, it did not go a step 
further to require states to remove barriers such as online school caps 
or seat time regulations. The federal government can prioritize states 
and grant recipients that implement smart effective quality control 
policies or use a blended learning approach to accomplish the grant's 
objectives in improving literacy, STEM, or other subject.

    2. Ensure federal funds follow the student. As school choice 
becomes more and more about taking some courses in a traditional school 
and some online, these models need funding streams that are flexible to 
follow the child to the course provider.

    3. Modernize our education broadband programs. Digital learning is 
more than just laptops, tablets, and broadband connections. But these 
devices and broadband infrastructure form an important base from which 
digital learning programs can be built. Programs such as the E-rate 
should be modernized, streamlined, and better aligned to the reform 
agendas being put into place by our nation's governors. Broadband and 
modern devices are needed to support not just richer digital learning 
experiences but also next generation assessments states are putting 
into place.
    The fact is that education is the only sector in the U.S. still 
debating the merits of using technology to improve its mission and 
explore new innovative models for learning. As a result our kids are 
being left behind. It is our moral imperative to better serve these 
students and that requires us to be open to new approaches and models. 
It is urgent that we reform our system of education into one that 
prepares each student with the skills they need to secure high paying 
jobs, participate in democracy, and engage the world.
                                 ______
                                 
    Chairman Rokita. Thank you very much.
    We will now hear from Mr. Smith, please. You are recognized 
for 5 minutes.
    Hit your microphone there.

    STATEMENT OF PRESTON SMITH, CEO & PRESIDENT, ROCKETSHIP 
                           EDUCATION

    Mr. Smith. There we go. Thanks. Thanks, John.
    Good morning. Thank you for granting Rocketship Education 
the opportunity to participate in the hearing. Thank you for 
your time.
    I am going to spend my time describing Rocketship and our 
story, and how our K-5 public charter schools are succeeding.
    Rocketship's successes speak directly to your key concerns, 
primarily blended learning. So first a brief overview of 
Rocketship.
    Our mission is to eliminate the achievement gap in our 
lifetime. It is a really bold statement, but it is what 
inspires us every day in our work. We were founded in 2006. 
Today, we have a network of seven K-5 charter schools serving 
3,800 Rocketeers in low-income districts in and around San 
Jose, California.
    We are expanding rapidly. We are opening between one and 
three schools each year. And by the year 2017, we hope to serve 
over 25,000 Rocketeers and families.
    Keep in mind, our students come from the poorest of the 
poor families. Over 90 percent of our Rocketeers qualify for 
federally funded lunches. And over 80 percent of our Rocketeers 
are learning English as a second language.
    And yet despite these hardships, our students have achieved 
outstanding performance. This past year, over 80 percent of our 
Rocketeers were proficient or advanced on the math standardized 
assessment, which is equivalent to the most affluent school 
districts in California.
    And we achieve the success with the public funding, just 
like traditional schools.
    So how do we do it? There are three core pillars that we 
have: personalized learning, transformational teachers and 
leaders, and engaged parents.
    First, we believe that every student has unique needs. It 
is our job at Rocketship to figure out the right lesson, the 
right Rocketeer and the right time, and deliver it. As a former 
teacher, I found that incredibly challenging. And thus upon co-
founding Rocketship Education, I knew that we needed to focus 
on how we would rebuild elementary schools from the ground up.
    And we also knew that we would have to aggressively evolve 
and innovate upon the traditional public school model. Our 
theory at that time was simple, but it was also radical. We 
thought that if we could integrate technology, tutoring and 
enrichment together in something we called a learning lab, and 
if we did that purposefully into the school day to support 
teachers' instruction, that it would be powerful.
    In the learning lab, online learning and tutors provide an 
engaging basic skills instruction, so that our teachers can 
focus on critical thinking and creativity and other skills in 
the classroom.
    We then further personalize instruction using customized 
learning plans which are reassessed every 8 weeks based on 
student data. Based on that data, we refine and adjust the 
plans. And this means that we are continually tailoring our 
instructional methods--so the independent online learning, the 
tutoring and teacher-led instruction and practice, to ensure 
that each student is learning at their own pace and the optimal 
environment.
    We have learned over the years that placing these tools, 
especially online learning, in the hands of great teachers can 
accelerate student learning. And when used in a targeted 
manner, these adaptive and assignable online programs can 
greatly boost student achievement.
    Our unique approach allows students to realize a year and a 
half of growth per year, 1.5 years of growth. And this has led 
to Rocketship currently being the highest performing low income 
elementary school system in the state of California.
    Finally, giving our children and our Rocketeers access to 
online programs enables them to achieve computer literacy, a 
critical skill in the 21st century. The Rocketship model allows 
our Rocketeers to leap over the digital divide.
    The second pillar to our model is transformational 
teachers. At Rocketship, we are striving to make teaching the 
best job in America. We hire amazing teachers and leaders. We 
pay them an average of 30 percent more than the school 
districts, and we surround them with a ton of on the job 
professional development and coaching.
    Teachers and leaders are at the core of our model.
    And our last pillar is parent engagement. We believe that 
the first teacher and the primary teacher of our Rocketeers are 
their parents. To that end, we make sure that every parent in 
our school receives a home visit every single year.
    Parents are involved in teacher selection. And not only 
that, we engage with our parents as leaders, so that they can 
go forward and advocate within their community, so that they 
can make sure that there is educational options far beyond 
Rocketship and beyond fifth grade.
    So that is our story. Perhaps most important for today's 
hearing is that Rocketship's model can be adopted by many other 
schools across the country. The Rocketship model, and more 
specifically blended learning, is something that any school, 
any district can implement. And if done with focus and with a 
focus on learning and mastering content, not just on 
technology, it is powerful.
    Further support from individuals like you and the federal 
government is critical to making this happen, so that we can 
better meet the needs--and unique needs--of every child in this 
country, and one day, we can eliminate the achievement gap.
    Thank you.
    [The statement of Mr. Smith follows:]

        Prepared Statement of Preston Smith, CEO and President,
                          Rocketship Education

    Founded in 2006, Rocketship Education is a public charter school 
network for grades K through 5. Our mission--and it's bold--is to 
eliminate the achievement gap in our lifetime. Today, we have a network 
of seven schools serving 3,800 students, or Rocketeers, in low-income 
school districts in and around San Jose, CA. Rocketship is expanding 
rapidly, opening between one and three new schools each year. In the 
fall of 2013, we will expand into Milwaukee. In addition to Wisconsin, 
we have been approved to open schools in Tennessee, Indiana, and 
Louisiana. By the year 2017, Rocketship will serve over 25,000 low-
income students.
    Rocketship's students come from the poorest of poor families. Many 
students receive federally funded school lunches. Often, both parents 
work two jobs just to stay afloat, and in many families, English isn't 
even the primary language spoken at home. Despite these hardships, our 
students achieve outstanding performance on standardized tests. For 
example, on the 2012 California math test, 80 percent of our students 
scored at proficient or advanced levels, on par with the highest-income 
districts in the state.
    Rocketship achieves our success with public funds just like 
traditional public schools.
    There are three core beliefs, or pillars, that contribute to our 
success: personalized learning, transformational teachers and engaged 
parents.

Personalized Learning
    First, we believe that every student has a unique set of needs. 
Rocketship's objective is to deliver the right lesson, to the right 
Rocketeer, at the right time. We customize each student's schedule with 
traditional instruction, technology, and tutoring. An extended school 
day ensures that in addition to state-mandated seat time requirements, 
each child spends at least an hour or more, working on a computer with 
a personalized learning program, or in small groups with a tutor. 
Online learning and tutors provide engaging basic skills instruction so 
that our teachers can focus on higher-order skills such as critical 
thinking, reasoning, and creativity. They also free up time for 
teachers to conduct more in-depth remediation and targeted intervention 
with individual students or small groups.
    When we founded Rocketship, we knew that in order to achieve our 
mission we would need to innovate aggressively and continuously in 
order to provide the type of public education that we believed our 
students and communities deserved. Our theory was simple yet radical, 
in the idea that technology, tutoring, and enrichment--a Learning Lab--
could be integrated purposefully into the school day to support the 
efforts and accomplishments of teachers and better personalize learning 
for students.
    For our first five years, Rocketship purposefully divided classroom 
instruction from our Learning Lab. Our intent was to learn how to 
realize personalized learning in a systematic manner before making it 
the responsibility of the teacher. We also knew that online learning 
was still in its initial stages, but again, as we began to explore 
content we discovered that this learning modality again granted us the 
opportunity to meet the unique needs of students and further 
personalize learning while also better maximizing our teacher's 
expertise and time.
    We then further invest in the instructional expertise of our 
teachers as they build customized learning plans for our students. 
Progress is monitored in eight-week cycles, at which point teachers 
analyze student data and then refine and adjust these plans to guide 
further innovation. This means that we can continually tailor 
instructional methods--independent online learning practice, tutor-led 
small group remediation, and teacher-led instruction and practice--to 
ensure that each student is learning at his or her own pace in the 
optimal environment.
    A suite of online learning programs allows us to provide engaging 
content and practice for students of different ages and skill levels. 
Consistent across all of our programs is that they are interactive, 
standards-based and linked to the Common Core, and adaptive or 
assignable.
    Placing these tools in the hands of great teachers can accelerate 
student learning. When used in such a targeted manner, these adaptive 
and assignable online programs can greatly boost student achievement 
through basic skills acquisition and practice.
    In addition, more and more at Rocketship, we are focusing on how we 
are able to integrate data from the online programs, maximize small 
group learning time, and structure our Rocketeers schedule in a manner 
that ensures we customize each student's schedule with traditional 
instruction, technology, and tutoring. Currently we are exploring the 
next iteration of our instructional model that will focus on 
integrating all of these instructional modalities (online learning, 
tutoring, traditional classroom instruction, small groups, and more) so 
that the amazing things that happen each day in each space can now come 
together under the guidance and instructional leadership of our 
incredible teachers and school leaders.
    We believe our unique approach allows students to achieve an 
average of 1.5 years of growth towards grade-level proficiency each 
year and the results bear this out as Rocketship is the highest 
performing low-income elementary school system in California.
    Finally, giving children access to online programs enables them to 
achieve computer literacy--an essential skill for anyone living in the 
21st century. Our students' involvement with Learning Lab is a valuable 
means for them to leap over the ``digital divide'' even if they do not 
have computers at home.

Transformational Teachers
    The second pillar is about transformational teachers. Rocketship 
strives to make teaching the best job in America. We hire great 
teachers, we pay them an average of 30% more than the school district, 
and we surround them with on-the-job professional development, support 
and coaching. Each year, the teacher, school principal and the academic 
dean create a professional growth plan, with revolving seven-week 
objectives. Every week, each teacher is observed (and often videotaped) 
in class by the academic dean. The dean and the teacher then review the 
video together to see what can be improved. Sometimes, feedback occurs 
in real-time: the teacher wears wireless ear buds, while the dean 
speaks quietly into a microphone in the back of the class, making 
suggestions to improve the lesson. This means our teachers get very, 
very good at what they do, very, very quickly. It also fosters 
collaboration and community. Our teachers feel part of a team and enjoy 
helping each other. With our rapid network expansion, Rocketship 
teachers have many professional growth opportunities--they can move 
into leadership roles as deans or school principals, or as regional 
superintendents.

Engaged Parents
    Rocketship's third pillar is about engaged parents. Rocketship 
supports parents as leaders at home, as leaders within our schools and 
as leaders within their communities. Each year, every family receives a 
home visit from the Rocketship principal and the student's teacher. The 
home visits give Rocketship a crucial sense of context for the student; 
they also foster a collaborative partnership with parents. Parents are 
welcomed into the schools as volunteers, although volunteering isn't 
required. Parents also take part in the hiring process of new teachers 
and hold monthly community meetings, which average over 75 percent 
attendance. We support our parents in building strong support networks 
at our schools and we are proud that they go on to advocate for 
community-wide change to improve educational options for all children 
in their communities.

A Proven, Repeatable Success Story
    Rocketship is continuously innovating in all three pillars--
excellent teachers and leaders, personalized learning, and engaged 
parents. Our continuous innovation is core to our success. We believe 
that every child has the potential--given a great foundation--to go 
farther than previously imagined.
    We also believe the Rocketship model can be adopted by other 
schools across the country. Since our founding, Rocketship has welcomed 
visitors and observers to our campuses, and we believe that our three 
pillars can be applied broadly to public education. In fact, the 
scalability of the Rocketship model is allowing us to grow rapidly and 
open new schools each year. That's why we believe we are fulfilling our 
mission to eliminate the achievement gap in our lifetime.
                                 ______
                                 
    Chairman Rokita. Thank you, Mr. Smith.
    Ms. Sagues, you are recognized for 5 minutes.

   STATEMENT OF HOLLY SAGUES, CHIEF POLICY OFFICER, FLORIDA 
                         VIRTUAL SCHOOL

    Ms. Sagues. Chairman Rokita, Ranking Member McCarthy and 
committee members, thank you for inviting me to testify and for 
taking the time to engage in thoughtful discussion about how we 
might continue to improve student achievement.
    Florida Virtual School serves Kindergarten through 12th 
grade public, private, and home-educated students free of 
charge as part of the Florida public school system. FLVS is the 
only statewide Florida school district with five schools, three 
part time schools and two full time schools.
    During the 1996 school year, Orange County, Florida, 
piloted a Web school with five online courses. The Florida 
Department of Education acted as a catalyst and initially 
encouraged a partnership between Orange and Alachua Counties.
    In November 1996, the Florida DOE provided the two 
districts with a $200,000 Break the Mold School Grant to 
develop the Florida High School Project. Following an intensive 
6-month period of planning and development, Florida High School 
officially launched with seven staff members in 1997.
    In 2000, the school changed its name to Florida Online High 
School, and then ultimately to Florida Virtual School in 2001.
    In the 2003-2004 school year, FLVS initiated partnerships 
with Florida school districts in order to increase the capacity 
of students who could be served online through an in-state 
franchise program. For 2011 and 2012, there were a total of 31 
franchises, which encompass 55 school districts.
    The in-state franchise program operates as an extension of 
Florida Virtual School. The franchise uses all of the FLVS 
systems. And the franchise staff is trained in FLVS policies 
and procedures.
    This continual growth pattern in student enrollments 
directly with FLVS and with the in-state franchise is evidenced 
in both the program's success in providing educational choice 
to students and the need for e-learning.
    From the $200,000 grant in 1996, FLVS has grown to a budget 
of $214 million for the school year 2012-2013 and has become 
the model for distance learning initiatives across the globe. 
FLVS is affiliated with all 67 Florida school districts and 
also serves students in the remaining 49 states and in more 
than 65 countries worldwide.
    The FLVS faculty, consisting of support staff, full-time 
instructors and adjuncts has increased to more than 2,000. All 
FLVS instructors are certified teachers in the state of 
Florida.
    FLVS delivers more than 120 courses, including core 
academics, credit recovery, electives, world languages, honors 
courses, and advanced placement. Florida Virtual School is 
fully accredited through AdvancED. Our core course curriculum 
is NCAA approved. And all courses meet or exceed Florida 
Sunshine State Standards, National Standards and are being 
converted to Common Core Standards.
    Driven by performance-based funding, FLVS only receives 
funding for students who successfully complete courses. In the 
2011-2012 school year, more than 149,000 students successfully 
completed over 314,000 half credit courses. To date, Florida 
Virtual School has served more than 600,000 students. And more 
than 1.2 million half credits have been successfully completed.
    Florida Virtual School has a strong focus on its core 
mission, which is to deliver a high quality, technology-based 
education that provides the skills and knowledge students need 
for success. FLVS was founded on the belief that every student 
is unique and learns at a different pace. Student advancement 
is based on demonstrated competency, not on seat time in a 
classroom.
    At FLVS, students work at their own pace and advance from 
one level to the next to achieve mastery of a subject. This 
allows for a student to accelerate their learning or, if 
needed, take more time to master the course.
    With online learning, curriculum and scheduling choices are 
no longer limited to local school offerings or a student's zip 
code. Access is offered 24/7/365, from any place with an 
Internet connection.
    The delivery of instruction at FLVS is both exceptional and 
unique, as instructors work one-on-one to personalize each 
student's learning experience. Students communicate with 
teachers regularly via phone, email, online chats, instant 
messaging, discussion forums, webcams, texting and social 
networking sites.
    As online education evolves, FLVS continues to lead the way 
with creativity and innovation. This year, a number of FLVS 
digital innovations have emerged, including eight supplemental 
mobile application products that align with our courses, 
development of phase II of the campus-wide mobile app called 
goFLVS, and a new game-based SAT review app called Word Joust.
    As one FLVS student stated, ``Mine is not your typical 
classroom, it is a door to the world.''
    Not only does the quality of education received through 
FLVS prepare students for success after they have completed 
their courses, the flexibility and innovative class delivery 
provides students the opportunity to launch their dreams while 
still pursuing their education, achieving success in both.
    Thank you for the opportunity to provide testimony. I look 
forward to fielding any questions you may have.
    [The statement of Ms. Sagues follows:]

       Prepared Statement of Holly Sagues, Chief Policy Officer,
                         Florida Virtual School

    Chairman Rokita, Ranking Member McCarthy and committee members, I 
am Holly Sagues from Florida Virtual School(r) (FLVS(r)). Thank you for 
inviting me to testify about Raising the Bar: How Education Innovation 
Can Improve Student Achievement. I have been with Florida Virtual 
School for 14 of the 15 years it has been serving students. My plan is 
to share with you our experiences and, more importantly, why we think 
innovation is transforming education.
    I want to thank the Committee for taking the time to engage in 
thoughtful discussion about how we might continue to improve student 
achievement.
    Florida Virtual School, the nation's premier online public school 
district, serves Kindergarten-12th grade public, private, and home 
educated students free of charge as part of the Florida public school 
system. FLVS is the only statewide Florida school district with five 
schools--three Part Time schools (Kindergarten-5th, 6th-8th, and 9th-
12th) and two Full Time schools (Kindergarten-8th and 9th-12th).
    During the 1996 school year, Orange County, Florida, piloted a 
``Web School'' with five online courses. The Florida Department of 
Education (FLDOE) acted as the catalyst in initially encouraging a 
partnership between Orange and Alachua Counties. In November 1996, the 
FLDOE provided the two districts with a $200,000 ``Break the Mold'' 
school grant to develop the Florida High School (FHS) project. 
Following an intensive six-month period of planning and development, 
FHS officially launched with seven staff members in 1997.
    In 2000, the school changed its name to Florida Online High School 
and ultimately to Florida Virtual School (FLVS) in 2001. Originally 
operating as a recurring line item in Florida's legislative budget, 
FLVS became fully funded via the Florida Education Finance Program 
(FEFP) in the 2003-04 school year.
    Also in the 2003-04 school year, FLVS initiated partnerships with 
Florida school districts in order to increase the capacity of students 
who could be served online through an in-state franchise program.
    For 2011-12, there were a total of 31 franchises which encompass 55 
school districts. The in-state franchise program operates as an 
extension of FLVS. The franchise uses all of the FLVS systems, and the 
franchise staff is trained in FLVS policies and procedures. The 
continual growth pattern in student enrollments directly with FLVS and 
with in-state franchises is evidenced in both the program's success in 
providing educational choice to students and the need for e-learning.
    From the $200,000 grant in 1996, FLVS has grown to a budget of $214 
million (including the Health Insurance Fund) for the school year 2012-
13 and has become the model for distance learning initiatives across 
the globe. FLVS is affiliated with all 67 Florida school districts, and 
also serves students in the remaining 49 states and in more than 65 
countries worldwide.
    The FLVS faculty, consisting of support staff, full-time 
instructors and adjuncts has increased to more than 2,000. All FLVS 
instructors are certified teachers in the state of Florida. In 
addition, 125 FLVS instructors now hold National Board Certification.
    FLVS delivers more than 120 courses including core academics, 
credit recovery, electives, world languages, honors, and 16 Advanced 
Placement(r) (AP(r)) courses. Florida Virtual School is fully 
accredited by Southern Association of Colleges and Schools/AdvancEd. 
Core course curriculum is NCAA approved and all courses meet or exceed 
Florida Sunshine State and National Standards and are being converted 
to Common Core State Standards.
    Driven by a performance-based funding model, FLVS only receives 
funding for students who successfully complete courses. In the 2011-12 
school year more than 149,000 students successfully completed 314,593 
half credits. To date, Florida Virtual School has served more than 
600,000 students and more than 1.2 million half credits have been 
successfully completed.
    Florida Virtual School has a strong focus on its core mission, 
which is to deliver a high quality, technology-based education that 
provides the skills and knowledge students need for success. FLVS was 
founded on the belief that every student is unique and learns at a 
different pace. Student advancement is based on demonstrated 
competency--not on ``seat time'' in a classroom. At FLVS, students work 
at their own pace and advance from one level to the next to achieve 
mastery of a subject. This allows for a student to accelerate their 
learning, or if needed, take more time to master the course.
    With online learning, curriculum and scheduling choices are no 
longer limited to local school offerings or a student's zip code. 
Access is offered 24/7/365 from any place with Internet connection.
    The delivery of instruction at FLVS is both exceptional and unique 
as instructors work one-on-one to personalize each student's learning 
experience. Students communicate with teachers regularly via phone, 
email, online chats, instant messaging, discussion forums, webcams, 
texting, and social networking sites.
    As online education evolves, FLVS continues to lead the way with 
creativity and innovation. This year, a number of FLVS digital 
innovations have emerged including: eight supplemental mobile 
application products that align with FLVS courses, the development of 
phase II of the campus-wide mobile app called goFLVS and the new game-
based SAT review app called Word Joust; a new story-based pilot middle 
school math course; and the launch of a new content tool called Octane, 
in collaboration with the Learning Management System provider UCompass, 
that launches key content from within course pages.
    These innovations and successes throughout the year did not go 
unnoticed. Based on Algebra I end-of-course assessment data released by 
the Florida Department of Education, FLVS students outperformed the 
state by 15 percent in Achievement Levels 3, 4, and 5. The recently 
released 2012 Advanced Placement Exam results revealed that FLVS 
students outperformed the state of Florida in overall averages by 14 
percent and global overall averages by 2 percent. In the Advanced 
Placement courses, FLVS serves every kind of student imaginable; yet, 
the completion rates remain one of the highest in the industry, proving 
that a wide variety of students can succeed with individualization, 
personal care, and a flexible pace.
    Also this year, alongside UCompass, FLVS was awarded a Silver IMS 
Learning Impact Award; Pam Birtolo, Chief Officer of Education 
Transformation for FLVS, was inducted into the United States Distance 
Learning Association (USDLA) Hall of Fame; and FLVS was named a 
Learning 100! organization for its focus on professional learning and 
development. In addition, Julie Young, President and CEO for FLVS, 
accepted two educational awards: the 2012 Dr. Carlo Rodriguez School 
Choice Award and the Florida Diversity Council's Multicultural 
Leadership Award. These awards and honors truly validate how Florida 
Virtual School lives its mission and vision every single day.
    The legislative landscape continues to help shape virtual learning. 
Effective July 2012, not only is Florida Virtual School able to provide 
the Full Time option to Kindergarten through 6th grade students, but 
FLVS is now able to provide these students part-time offerings as well. 
In addition, FLVS Full Time students are now eligible to participate in 
interscholastic extracurricular activities at the public school to 
which the student would be assigned to according to district policies. 
In June 2013, FLVS will be able to grant diplomas, for the first time, 
to students graduating from FLVS Full Time. Furthermore, our FLVS 
Global division, by legislative mandate, may license FLVS courses to 
schools across the country and around the world. Revenue generated from 
these endeavors is invested back into improving educational outcomes 
for Florida students through research and development of courses. It is 
this legislation and others that provide to students the needed options 
and access to choose online learning before entering middle or high 
school.
    Students come to FLVS for a variety of different reasons such as to 
better their grade, accelerate to graduate on time or to get ahead, to 
take a course not offered at the school such as Advanced Placement 
courses, to learn at their own pace, or to balance extracurricular 
activities.
    Florida Virtual School students come from all walks of life. FLVS 
students are public, private or charter school students; medically 
homebound students; homeschool students; student athletes; student 
performers; working students; and students of families in the military 
or with international commitments.
    Students that have attended or are currently attending Florida 
Virtual School include:
    <bullet> Aly Raisman, an Olympic gold medalist in gymnastics at the 
2012 Summer Olympics.
    <bullet> Lexi Thompson, the youngest-ever female winner of an LPGA 
tournament.
    <bullet> ``Little Gator'' Noah Cornman, who tours the United States 
racing his Bandolero race car at speeds near 70 miles per hour.
    <bullet> Luke Marks, ranked 16th among all surfers in Surfer 
magazine's ``Hot 100'' feature, which highlights the best young surfers 
on the planet.
    <bullet> Bailey Madison Hotte, an actress who starred with Billy 
Crystal and Bette Midler in the movie ``Parental Guidance.''
    <bullet> Ashley De La Rosa, a finalist on ``The Voice'' season two.
    <bullet> Shannon Magrane, a finalist on ``American Idol'' last 
season.
    <bullet> Laura McKeeman, Miss Florida 2012.
    <bullet> Zach Marks, the creator of GromSocial.com, a social 
networking site for kids by kids.
    <bullet> Bailey Reese, founder/president of HeroHugs.org.
    <bullet> Willow Tuffano, who collected and sold other people's 
trash, saved her money, and purchased her first house at the age of 14.
    <bullet> Brendan Santidriam, a young autistic man who loves movies, 
placed third in the 2012 Florida Department of Education's statewide 
Literacy Public Service Announcement contest.
    <bullet> Aditi Hota, recognized as ``The Best and Brightest 
Student'' in Leon County, FL, is a thriving junior at Harvard 
University majoring in mathematics.
    <bullet> Drew Willis, a student who struggled in school for some 
time before being diagnosed with a brain tumor, is doing well and 
thriving in his FLVS online learning environment.
    As one FLVS student stated, ``Mine is not your typical classroom, 
it's a door to the world.'' Not only does the quality of education 
received through FLVS prepare students for success after they've 
completed their studies, the flexibility and innovative class delivery 
provides students the opportunity to launch their dreams while still 
pursuing their education--achieving success in both.
    The Florida Virtual School commitment is that the student is at the 
center of every decision made. This is not just a line on a piece of 
paper. This is what the entire FLVS team lives and breathes every day.
    Thank you for this opportunity to provide testimony. I look forward 
to fielding any questions you may have on this topic.
                                 ______
                                 
    Chairman Rokita. Thank you, Ms. Sagues.
    Mr. Shelton, you are recognized for 5 minutes.

   STATEMENT OF JIM SHELTON, ASSISTANT DEPUTY SECRETARY FOR 
    INNOVATION AND IMPROVEMENT, U.S. DEPARTMENT OF EDUCATION

    Mr. Shelton. Good morning, Chairman Rokita, Ranking Member 
McCarthy and members of the subcommittee. Thank you for the 
opportunity to be here today.
    You are starting to get a portrait from the other 
distinguished panelists about the potential of learning 
technology to impact learning in the field. I would like to 
spend my time focusing on a few other examples, but also on the 
role it can play not only in improving general education, but 
also securing our role in international leadership, both 
educationally and economically, for future generations.
    See, I believe that advances in learning sciences and 
technology provide the United States with a unique opportunity 
to achieve our aspirations to expand educational access, 
increase individual opportunity, strengthen national 
competitiveness and propel economic growth.
    But none of these things are inevitable. It actually 
requires that we act.
    To be blunt, we have reached another Sputnik moment, one 
which challenges federal, state and local leaders, and 
educational stake holders to have the vision and courage to do 
what is necessary to retain and some would say, reclaim 
American education and economic leadership.
    Learning technology can and will transform education in at 
least three core ways, if we act. First, learning technology 
will greatly expand access and equity. Second, it will 
transform teaching and learning. And third, learning technology 
will dramatically accelerate and enhance research and 
development. Not just about education and technology, but about 
education overall.
    Let me speak first to the issues of equity. The reality is 
that many children across this country don't have access to 
high quality educational opportunities. Education technology is 
starting to intervene. In rural areas, it is providing access 
to A.P. courses and foreign language courses, college level 
courses, other learning experiences that were, heretofore, 
unaffordable or inaccessible to the students in those areas.
    The Niswonger Foundation is doing this work in Tennessee 
based on a grant they got from the i3 Program. Across the globe 
and here in the U.S., students are using online videos and 
exercises to increase learning time, to actually get the 
support that they need from volunteer or professional tutors 
online, where they can't get those things or afford those 
things on their own.
    Tens of thousands of students, as you said, are already 
enrolling in virtual schools. They are doing so because of a 
variety of circumstances. Some are home schoolers. Some are 
chronically ill. Some are doing it because they have other life 
circumstances get in the way.
    Children in our DoDEA Schools are benefiting from it around 
the globe to get access to courses they wouldn't have access to 
otherwise in their schools. Students with disabilities in a 
variety of different ways are getting access to learning 
content that they wouldn't be able to access without these new 
technologies.
    These are all great examples. But the reality is that we 
can provide this unprecedented equity and access only if we 
create the opportunity for those who do not have access to the 
technology and use it to meet their needs.
    The second core shift is going to be the shift in teaching 
and learning itself. And you have heard about the ability of 
technology to do several things. One is the ability to actually 
transform the learning experience for the student by actually 
making it personalized.
    Teachers walk into classrooms every day with somewhere 
between 15 and 60 students in their classroom. Secondary 
students see 100 to 150 students a day. And we ask them to go 
into these classrooms of students that have different levels of 
preparation, different language backgrounds, different culture 
backgrounds, different social contexts, and to meet each 
student with the perfect content and instructional approach.
    And in many cases, we ask them to do this with outdated 
textbooks, colored markers and whatever creativity they can 
muster that day to provide a great opportunity for learning for 
their students. There is no other sector in this country that 
we ask to perform this way.
    If we provide teachers with the tools that they need, we 
can not only increase their ability to be successful, but 
extend the reach of the most successful teachers.
    Yesterday, I had the opportunity to do an online convening, 
just really briefly, with a bunch of folks focused on education 
technology. And one of them asked me, who would you rather 
have, a teacher that is amazing or a teacher that is subpar 
using technology? You always want the amazing teacher.
    But the question is, can you take all of our teachers' 
capabilities to the next level, so that it doesn't take heroics 
to actually teach each of our students?
    Let me end quickly by focusing on the role that we have to 
play in improving research and development, so that we can 
provide the kinds of tools that our teachers are going to need. 
These things are not going to emerge just by bubbling up from 
the bottom.
    The reality is that three decades ago, Benjamin Bloom 
demonstrated that one-to-one tutoring produced two sigma 
improvement over classroom instruction, two standard 
deviations, so a 50th percentile student is brought up to the 
98th percentile.
    The problem is we haven't figured out how to afford that 
model. Technology, for the first time, is putting us in the 
position where we can actually personalize education for every 
child, putting the right resources in every teacher's hand, at 
the right moment to meet that student's need, to pique their 
interest, to allow them to explore.
    These are things that are all in our hands. But we haven't 
invested properly. Most growth sectors invest anywhere from 10 
to 20 percent in research and development. Mature sectors, 2 to 
3 percent.
    Education invests 0.2 percent in research and development. 
And our research agenda is fragmented.
    So we have the opportunity now to reclaim American 
leadership by building up the kinds of infrastructure that is 
required, by doing the kinds of research and development that 
is required to put us in the position, as it has before, when 
we were asked the question what we were willing to do to win--
so far, we have answered the question, whatever it takes.
    The question is do we really mean what we say about 
education? Thank you.
    [The statement of Mr. Shelton follows:]

   Prepared Statement of Jim Shelton, Assistant Deputy Secretary for 
        Innovation and Improvement, U.S. Department of Education

    Chairman Rokita, Ranking Member McCarthy, and Members of the 
Subcommittee, greetings and thank you for this opportunity to testify 
today.
    I would like to speak with you about two related topics:
    <bullet> First, the potential of technology to fundamentally 
transform education, dramatically altering the levels and pace at which 
we develop America's human capital--our people.
    <bullet> And second, the vital role of technology in ensuring our 
international leadership and affirming America's global standing 
educationally and economically for future generations.
    Advances in the learning sciences and in technology provide the 
United States with a unique opportunity to achieve our aspirations to 
expand educational access; increase individual opportunity; strengthen 
national competitiveness; and propel economic growth. However, 
realizing these opportunities will require new and improved approaches 
to both educational innovation and the investments and infrastructure 
to support it. To be blunt, we have reached another ``Sputnik Moment'', 
one which challenges Federal, state, and local leaders, and educational 
stakeholders, to have the vision and courage to do what is necessary to 
retain America's educational and economic strength.
    Learning technology can and will transform education in at least 
three core ways:
    1. First, learning technology will greatly expand access and 
equity;
    2. Second, it will transform teaching and learning; and
    3. Third, learning technology will dramatically accelerate and 
enhance research and development in education.
Increasing Access and Equity
    Let me speak first to the issue of expanding access and enhancing 
equity. If providing our young people with access to learning through 
technology does nothing else, it will dramatically increase 
opportunities to learn and excel for all students, especially those 
isolated by geography or income and those simply hungry for more than 
their schools are able to offer.
    <bullet> In rural areas, entities such as the Niswonger Foundation, 
which is a grantee of the Department of Education's Investing in 
Innovation Fund, have used technology to enable students to access 
foreign language instruction and materials, Advanced Placement and 
other college-level courses, and a variety of learning experiences that 
were previously unavailable or unaffordable in many isolated geographic 
areas.
    <bullet> Both here in the U.S. and across the globe, students are 
using technology to obtain extra support during and after school from 
recorded videos and online exercises available through web-based 
resources, as well as from peers and personal tutors provided through 
online networks.
    <bullet> Tens of thousands of students are enrolling in virtual 
schools and online courses. The flexibility of virtual schools and 
online courses can benefit all students, but it particularly helps 
students in unique circumstances like those who are chronically ill, or 
behind in their credits. Florida Virtual Schools, the only school 
system in America that gets paid only when the students learn, is 
serving almost 200,000 students.
    <bullet> The Department of Defense Education Activity's Virtual 
High School allows military-connected students around the world to 
enroll in courses that would otherwise not be offered in their school. 
In select instances, students in a remote area are joining live classes 
offered in larger high schools via video-conference. A one-to-one 
student-to-device ratio in pilot schools is geared toward easing 
transition and increasing access for military-connected students.
    <bullet> Federal civil rights law requires that all educational 
programs offer equal access to students with disabilities, and numerous 
new technologies especially target and benefit such students, giving 
accessibility and universal design new meaning for thousands of 
students.
    All of these innovations, and these are just a few of the examples, 
are providing opportunities to learn and excel that were often out of 
reach for millions of students before technology began leveling the 
playing field. Creating unprecedented equity and access to education 
alone will make investing in digital infrastructure and learning tools 
worthwhile; but there are many other benefits.
Transforming Teaching and Learning
    The second core shift that technology will accelerate is a 
fundamental transformation of teaching and learning--which in many 
respects has been remarkably static for much of the last century. At 
the most basic level, open, free, and proprietary digital content can 
be kept up-to-date, and revised and improved at any time. It can 
replace traditional textbooks, lowering costs and eliminating the back-
breaking backpack. It already has moved beyond digitized books to 
create new media with linked or embedded dictionaries, encyclopedias, 
assessments and videos, and simulations to give students multiple ways 
and chances to understand and master content.
    We should not underestimate the impact of even seemingly simple 
innovations. How many students have missed a key concept because the 
class moved on before they understood, or because the text was too 
difficult or because they didn't carry home their heavy books that day? 
How many times has the fear of being embarrassed prevented a student 
from asking the teacher to explain a concept for the second, let alone 
the third or fourth time? These issues are real. They impact learning. 
And new technology-enabled tools and resources hold the potential to 
ensure that children do not fall behind in the most basic ways.
    But, as the record of many sectors of the economy shows, real 
transformation does not come from replicating old processes using new 
technology. Real innovation emerges when technology is leveraged to 
change and improve products or processes in ways that were impossible 
or impractical without the technology. I could spend many hours on this 
topic alone, but let me focus on a few obvious examples of how this 
applies in teaching, learning, assessment, and research and 
development.
    More than three decades ago, Benjamin Bloom demonstrated what he 
dubbed the ``two sigma problem''--sigma meaning standard deviation. 
Bloom showed that a student in a given subject, learning through 1:1 
tutoring, outperformed students in a traditional classroom by two 
standard deviations--meaning a student in the 50th percentile would 
instead be in the 98th percentile. To put this into context, if the 
U.S. performance improved by just one standard deviation on 
international assessments, we would be the highest performing nation in 
the world, and our students performing in the lowest 10 percent would 
be performing at the level of our current top-quartile students. There 
is no disputing these findings or the magnitude of their implications, 
yet until now we have been unable to close the gap between the 
traditional classroom and the individualized instruction that might 
solve the ``two-sigma problem.'' Our challenge is to find a way to 
affordably provide each child this opportunity.
    Every day, teachers go into classrooms of anywhere from 15 to 60 
students and struggle to match each student with the content, 
instructional approach, and supports to ensure each student's personal 
engagement and success. The average secondary school teacher will try 
to tailor instruction for more than 150 students a day, knowing that 
each student has a task complicated not only by different levels of 
preparation and interest each student brings to school, but also by 
different language and cultural backgrounds and social contexts. In far 
too many classrooms, we are asking our teachers to meet these demanding 
goals with little more than an outdated textbook, some colored markers 
and whatever creativity they can conjure to make the best use of the 
few hours of the day their students are in front of them. Given these 
challenges, it is easy to see just how extraordinary our most effective 
teachers are; and how important it is that we equip all our teachers 
with the tools to enable them to teach all their students effectively.
    Technology holds the legitimate potential, perhaps for the first 
time, to affordably personalize American education--on a national 
scale. It enables us to put the right information, tools, and resources 
in a teacher's hands, so that she can meet a student's needs and pique 
her interests. However, just as important, technology can enable 
students to progress through material at their own pace, identify, and 
explore their passions, and take extra time and access extra support 
when they need it. In short, new advances in education technology can 
enable students to take ownership of their own learning, while also 
enhancing a teacher's capacity to be a facilitator and mentor for such 
empowered students. What is inspiring is that there are classrooms 
throughout our country where both students and teachers are using 
technology to accomplish all of these things.
    From flipped classrooms, where online instruction is delivered out 
of class so teachers can help students with ``homework'' during class, 
to blended schools that combine face-to-face teaching methods with 
computer-based methods, to thoughtful implementations of project-based 
learning, teachers, schools, and systems are using technology to 
rethink traditional roles and to personalize teaching and learning. 
They are using data to better target student needs and access 
educational content--enabling students to learn at their own pace and 
in the ways that suit them best. Teachers are using games to teach 
collaboration and complex problem-solving skills to deepen learning for 
all students.
    To cite one example, teachers in the Mooresville Graded School 
District in North Carolina--which provides a laptop for every 4th 
through 12th grade student using primarily digital curricular 
materials--use technology as a catalyst to make learning more 
interesting, build better relationships among students, teachers and 
parents, and ultimately improve student and school performance on 
almost every metric. The district--one of the lowest funded districts 
in the state--has become the second highest performing district in the 
state, with graduation rates over 90 percent and millions of dollars 
per year in new college scholarships. And they accelerated achievement 
and attainment while sustaining a 10 percent reduction in state 
funding. Veteran Mooresville teachers talk about how their initial 
skepticism turned into enthusiasm and how now they ``can't imagine 
going back.''
    Meanwhile, millions of teachers and students have begun using 
technology-based platforms to support their daily learning lives. 
Through such platforms, teachers have access to a constant network of 
support from other teachers in their local community and across the 
country. Students connect with their teacher, fellow students, and 
their work, with a tool that they find as well-designed and compelling 
as Facebook but that actually helps them be productive and achieve. 
Using such tools, with their associated opportunities for social 
networking and peer- or group-learning, also helps students engage in 
deeper learning and further develop 21st century skills such as problem 
solving, critical thinking, and communication that are critical to 
success.
    Hundreds of thousands of students with visual impairments and 
significant reading disabilities have been provided access to 
instructional materials in accessible formats available for download to 
computers, tablets, or mobile devices. These innovative products and 
processes have resulted in more timely delivery of educational 
materials and increased ease of use and access.
Accelerating Research and Development in Education
    Third, I want to talk briefly about how technology can accelerate 
research and development in education. Both in early learning and 
higher education, the evidence of the potential of technology-enabled 
education is mounting.
    A quasi-experimental study documented that young children using 
digital numeracy games in Head Start centers demonstrated significantly 
greater learning gains than children who did not have the same access. 
Numerous studies of post-secondary course redesigns leveraging 
technology have documented that students not only achieved at 
significantly higher levels of persistence and performance than the 
control groups, but did so in about half the class time. One particular 
experiment conducted by Nobel laureate Carl Wieman that studied 
multiple professors using a new course redesign found that the most 
significant performance gains were made by the instructor that 
historically had the lowest student performance. The technology-driven 
redesign brought that professor up into the range of all other 
professors.
    Finally, I would be remiss if I did not mention that the military 
has utilized the learning sciences and technology to produce truly 
remarkable learning gains in the area of Information Technology career 
and technical education--enabling new recruits, after just 16 weeks of 
training, to successfully compete with experts with seven to ten years 
of experience in solving highly complex technical problems such as 
diagnosing and debugging an enterprise network. These results are 
preliminary, but they raise profound questions about the conventional 
wisdom on teaching, learning, and the capacity to acquire technical 
skills.
    These are all wonderful examples of the potential of the learning 
sciences and technology to transform education. However, many of you 
may recall hearing before that this transformation was imminent, only 
to be disappointed when it failed to come to fruition. So the obvious 
question is: why will it be different this time?
    Leading investors and entrepreneurs say that innovation happens at 
scale in healthy ecosystems. The good news is that the macro forces 
underlying the education technology ecosystem are all moving in the 
right direction. Unlike the situation even five years ago, conditions 
are ripe for science and technology to produce dramatic gains in 
opportunity, productivity, and student outcomes. Specifically, the 
convergence of at least seven trends supports rapid technological 
transformation in education: (1) ever more powerful and lower cost 
devices, such as tablets, netbooks, and laptops; (2) high-quality 
digital content in courses, videos, simulations, and e-books; (3) cloud 
computing and broadband are putting powerful applications and rich 
content on almost any device at any time, without the need for local 
training or technical support; (4) big data collection and analysis to 
improve the speed and precision of decision-making and help identify 
what works; (5) increasing comfort across all age groups with using 
technology; (6) accelerating breakthroughs in neuro, cognitive and 
behavioral science; and (7) significant pressure to improve the cost 
effectiveness of public dollars.
    The bad news is that it is well-documented that significant gaps 
remain in the U.S. system for education technology, and historic 
challenges persist, although there are opportunities to make smarter, 
more strategic uses of education technology. A number of factors 
combine to form a difficult market, causing entrepreneurs and investors 
to either stay away or treat the education sector as a hobby or 
charitable endeavor, leaving the incumbent providers with little 
competition or incentive to improve. For example:
    <bullet> The Federal Communications Commission's E-rate program has 
successfully increased internet connectivity to nearly 100 percent of 
schools from less than 10 percent when the program was created. 
However, non-Federal organizations have estimated that few schools have 
the bandwidth to support the applications and uses of today, and fewer 
still have the devices to allow teachers and students to significantly 
change the ways in which they work. Achieving a critical mass is vital 
to transforming any school or system which will not happen without 
further investment.
    <bullet> Technology markets require scale, as noted recently by Jim 
Coulter, the founder of TPG Capital and the co-Chair of the LEAD 
(Learning Education by Advancing Digital) Commission. The education 
technology market provides neither the easy access of a large consumer 
market nor the efficiency of a large institutional market. Complex and 
bureaucratic purchasing processes make K-12 education difficult to 
navigate by any but the most experienced providers with the largest 
sales forces. Further, lack of information and understanding about 
which tools actually improve student achievement makes purchasing 
decisions and product differentiation based on performance and quality 
extremely difficult. But there are ways to address these shortcomings. 
Building on the examples of Maine and Pennsylvania, whole states or 
consortia of states can organize to aggregate purchasing power, lower 
prices, and demand different and better products. And various non-
profit and for-profit providers are attempting to develop user-friendly 
interfaces to become a trusted source for those making decisions about 
which educational resources to purchase or use.
    <bullet> Longstanding skepticism of technology in education, 
combined with inadequate training and support, has also thwarted the 
widespread adoption and use of education technology. This challenge has 
been exacerbated by products that were poorly designed, too many of 
which have been difficult to use and produce dubious results, or 
products that have been inaccessible to students with disabilities. As 
a result, we must focus our efforts on providing evaluated, proven 
tools in which teachers have confidence, and think comprehensively 
about how to prepare teachers around the country to integrate these 
technologies into the classroom.
    <bullet> Finally, underfunded and unfocused Research and 
Development (R&D) in this area has limited advancements and, as a 
result, precluded the kind of leadership evident in other sectors.
    <bullet> All levels of government chronically under-invest in 
education R&D--high-growth industries invest 10-20 percent of sales 
revenues in R&D; many mature industries invest 2-3 percent. Only 0.2 
percent of national K-12 spending is devoted to R&D.
    <bullet> The U.S. Department of Education provides no exception to 
that general trend of under-investment in education R&D. The trajectory 
of educational innovation would be accelerated exponentially by 
increasing our investment in the science of learning and learning 
technology R&D.
    <bullet> Going forward, while the public sector invests in model 
schools or systems, the private sector, both philanthropic and for-
profit, can invest in classroom-level innovations that actually work 
for students and teachers.
    These obstacles are substantial but they can be overcome if we have 
the will to win the global race for economic and educational 
competitiveness. We have every motivation to do so. Our students and 
our country deserve no less. Further, opportunities abound to build on 
progress already in motion. For example, the Department of Education 
has used competitive grant funding through the Investing in Innovation 
(i3) Fund and the Race to the Top-District competition to support 
innovative strategies, interventions, and tools centered on technology. 
And, the Department of Defense Education Activity has developed a 
professional learning framework to be introduced in school year 2013-
14, which focuses on creating student-centered, technology infused 21st 
Century classrooms and schools.
    Given the advantages of access and equity, the urgent need to 
transform teaching and learning for all of our nation's students, and 
the opportunity to better align and invest in R&D, there is every 
reason to move ahead rapidly. I will briefly cite three reasons:
    1. First, national competitiveness--Countries that are already 
outperforming us educationally and economically are also ahead of us in 
the transition to technology-supported learning. Countries such as 
Singapore and South Korea have recognized that investing in technology 
enables them to move up faster to higher levels of performance in 
workforce development, including teaching their students to be creative 
and innovative, traditionally America's hallmarks. Many of these 
countries have already made national commitments to realizing their 
visions.
    2. Second, we want to retain international leadership in education 
technology. The rest of the world has realized that the key to long-
term economic success is human capital development. Yet many countries 
cannot build enough schools or train enough teachers to meet the new 
demand. To address this challenge they are turning to technology. 
Today, education is a $5.7 trillion market and growing. The U.S. is 
primed to export learning technology, but other countries are not 
standing still. There will be a new equivalent of Google or Microsoft 
to lead the global learning technology market. I want it to be a U.S. 
company.
    3. Finally, and most important, the educational needs of our 
children are unmet. We have known for the better part of three decades 
that we have been cheating our nation's future--that our students are 
capable of much more than we are enabling them to do. The delivery of 
education must be more exciting and relevant to reflect the best of 
what school can be. We owe our children and we owe our nation the best 
possible education, and it is in our power to provide it.
    Like so many other times in our history as a nation, we are 
confronted with the question: what are we willing to do to achieve our 
goals? Our historic answer has been ``whatever it takes.'' It is time 
to give that answer once again.
    Thank you, and I am happy to answer any questions that you may 
have.
                                 ______
                                 
    Chairman Rokita. Thank you, Mr. Shelton.
    We will now recognize committee members for 5 minutes of 
questioning each, starting with Chairman Kline.
    Mr. Kline. Thank you, Mr. Chairman. I want to add my thanks 
to the witnesses for being here. It is really, really exciting 
testimony. Really exciting stuff. I am pretty sure I want to be 
a Rocketeer today. Just terrific, very, very exciting.
    I want to get to a couple questions here in a second, but I 
was sitting here thinking about how this innovation is 
unfolding, and how each of you, in your different capacities, 
have grabbed it, and the progress that is being made. And it 
reminded me of many, many years ago, decades ago, a long time 
ago, when I was in the Marine Corps.
    And I was at Marine headquarters. And I remember there was 
a process that was going on, a procurement process to figure 
out what computers and operating systems the Marines ought to 
get for their offices around the world.
    And while they wrestled with this and did briefing papers 
and sent it up and had it reviewed and sent it back, and then 
rethought it and then repriced it, the offices in the Marine 
headquarters itself were already in their second generation of 
computers, because the innovation was moving so fast.
    So people figured out a way to just get what they needed. 
They used operations and maintenance funds, instead of 
procurement, went out and bought it. Now that resulted in a 
fair amount of confusion because some people wanted one 
operating system and some another. But the point is, is that we 
were frozen in a paradigm and a model and couldn't figure out 
how to break out of it.
    And we here on this dais and in the government department, 
we get kind of frozen, too, as we struggle through. And you are 
out there changing things, closing gaps, making things happen. 
So it is very, very exciting to hear from you.
    And I know there is a lot of bipartisan interest here in 
what you are doing. We don't always have bipartisan agreement, 
you would be shocked to hear, on things. But there is a lot of 
agreement that you are doing some really fantastic stuff.
    And Mr. Bailey, your testimony, you talked about policy 
barriers, things that are getting in the way. It could be an 
antiquated system. It could be old Marines, whatever. But there 
is something out there.
    And some of those things is the model we use now that 
checks seat time instead of actual learning and things, and we 
need to grapple with those, the department does and so forth. 
But some of them you mentioned, enrollment caps and limits on 
expansion of online options.
    That seems to be a different kind of barrier. Who puts 
those barriers in place? And how are some people getting around 
them?
    Mr. Bailey. That is a great question. I would say these 
barriers come in sort of two different forms. There are 
unintentional barriers of just sort of regulations that have 
been around that assumed a certain model of schooling, that now 
you have new technology models and new models of education, 
like Rocketship, Florida Virtual, other online models, that are 
starting to challenge that.
    And you think about it, when a lot of our regulations and 
laws were put in place, they never dreamt of a time when a 
student in Washington, D.C., could be taught by a teacher from 
Florida through a charter school model that originated in 
California.
    And that confounds all sorts of different--you know, where 
does that teacher need to be certified? What types of 
requirements, regulations do they need to be under? What 
jurisdiction?
    There are just sort of questions there that states I think 
are wrestling with.
    The second type of regulations, the caps and others that 
you mentioned, are really sort of coming out as a way of trying 
to constrain some of this innovation, because I think people 
get nervous about quality. And the caps are just a very poor 
substitute for having good quality metrics and measures and 
evaluations in place to make sure that, you know, good 
providers and good options are scaled, and ones that just 
aren't delivering results for kids are sort of pushed back.
    Those concerns come from all sorts of different angles, 
from schools worried about losing funds, from just the 
traditional model being threatened by some new innovations. And 
change is scary for some people.
    And so that manifests itself in enrollment caps, in the 
number of online schools that can be offered in the state. That 
is a current regulation in Massachusetts.
    There have even been very strange caps and requirements, 
where some students were only limited to online options that 
were offered within their district, which would be sort of 
telling someone, like, you can shop online at Amazon if you 
lived in Seattle. It just sort of breaks down and holds back 
the shear opportunity to have what Jim was just talking about, 
bringing in some of the best and brightest teachers and experts 
from around the world, but also other resources and courses 
from around the world.
    Mr. Kline. Thank you very much. I see my light is getting 
ready to turn red.
    I yield back, Mr. Chairman.
    Chairman Rokita. Thank you, Mr. Chairman.
    I now recognize Ranking Member Miller for 5 minutes. Excuse 
me. That is right, my bad.
    Mrs. McCarthy for 5 minutes.
    Mrs. McCarthy. Thank you.
    Mr. Smith, you know, reading your testimony and then 
hearing what you just said, you mentioned that you were able to 
pay your teachers even more money than I guess the local 
teachers are getting. You also mentioned the high scores that 
your students are achieving, which I recommend, which I am very 
proud about hearing that.
    And blending the learning environment requires attention to 
detail and flexibility. We understand that now. And it seems as 
though you are dedicated to these principles, which I am very 
glad to hear.
    You mention that basic skills are honed in with tutors and 
online learning, while higher order skills are still reserved 
for traditional teacher/student interaction. And I agree with 
that.
    I was wondering how--and one more question in there, how do 
you deal with students with disabilities? I have learning 
disabilities. And when I went to Silicon Valley years ago, I 
said why aren't you doing more not only for adults, like we 
carry that for the rest of our life, but for the students that 
are in there that learn differently?
    How do you deal with that? And how do you come up with the 
model that you came up with?
    Mr. Smith. That is a great question. So we do have special 
education students. We actually call it at Rocketship ISD, or 
integrated service delivery. So we want to really make sure 
that those students are not identified as special ed, but 
rather a part of the core group.
    So all of our students are mainstream, meaning they 
participate in the general classroom. But this is an area where 
online learning has really been helpful to us, not only in the 
content that we can offer, because there is specialized 
content. So we use some different online programs for students 
depending on their needs, especially for our ISD population.
    And then also the ability for the data--when I was talking 
about the ability of technology is not necessarily the silver 
bullet, but it gives the teachers the ability and the tools to 
really identify what a kid needs.
    And so the data we get from the online programs, especially 
for our special ed students, really helps the teachers target 
and then customize their plans for the next 8 weeks.
    And in addition, a lot of our students have--some have one-
to-one aides, or we have other special education teachers as 
well.
    Mrs. McCarthy. One of the things that I wanted to follow up 
with, the teachers, when you hired the teachers, did they 
already have a high understanding of computer and online 
teaching? Because I am wondering if our universities are even 
teaching that. I haven't seen too much of that.
    So is it an intense course that you offer to the teachers? 
Or do they have to be a certain aptitude, you know, towards 
computers and online teaching? Explain that to me.
    Mr. Smith. So most of our teachers are really open to 
technology. I think that is kind of the world we live in now. 
Everybody is very familiar with it. I think the bigger need 
that we have with our teachers is less about training and 
understanding on actual technology. It is more on data.
    So we have separate online programs that provide 
personalized lessons to students. It is really then taking that 
data from the programs and understanding what the students have 
mastered, and then as the teacher, what are your next steps and 
what are you going to do in terms of modifying your 
instruction, your groupings and your lesson plan.
    So that is a real key skill that we have to develop for our 
school leaders and teachers.
    Mrs. McCarthy. And one follow-up question, you said that 
basically you look at the students every 8 weeks.
    Mr. Smith. Correct.
    Mrs. McCarthy. And you were a regular school teacher at one 
time. Tell me the comparison, when you go in and test the 
students at 8 weeks, and information you get. I am a data 
person. I never understand why we can't get the data even 
faster.
    And going back to the school models that we are under right 
now, how long would you have to reevaluate students you had 
that did not get online learning?
    Mr. Smith. Yes, just to even clarify a bit more, we 
actually now are getting to the place where we are getting 
daily or weekly data. So we are giving students assessments 
online through some of the content, where we can actually in 
real time--so we can teach a lesson, see if a student has 
mastered it or what groups of students haven't. And the next 
day or even in the next part of the classroom, actually modify 
groupings and modify instruction.
    So we have gotten down to that level. And we are doing that 
right now.
    When I was a regular, traditional public school teacher, 
which was about--it was about 7 years ago, typically, we would 
assess two, maybe three times a year. But it wasn't as 
integrated into our schedule.
    Mrs. McCarthy. Now you say that you work in some of the 
poorest schools in certain districts. Do they go home with, 
like, a computer or an iPad or anything like that? And let's 
face it, a lot of the parents might not have the technology 
that they can use to be with their child as they are learning.
    How do you address that?
    Mr. Smith. Yes, you nailed it. It is a large challenge for 
us. So connectivity in low income neighborhoods is a real 
challenge. A lot of the families don't have wifi or wireless 
access.
    And then the costs, so in California I think it is 49th in 
terms of funding. So buying tablets and those sorts of things 
for our kids really isn't an option.
    So what we have done is we have computer access and wifi at 
our schools. So we have an extended day. And we also offer an 
after school or before school program. So we have the kids come 
in and we are starting to send home online homework.
    So that is what we have started to do, but the connectivity 
is a real challenge, and then the cost of the devices, we are 
still waiting for those to come down.
    But our hope is in about 2 to 3 years, every student would 
have a device and connectivity where they could go home and 
access the content at home as well.
    Mrs. McCarthy. Thank you. My time is up.
    Chairman Rokita. Thank you.
    Dr. Roe is recognized for 5 minutes.
    Mr. Roe. Okay. I thank the chairman for recognizing me. 
First, I learned something--first of all, Happy Valentine's 
Day. Obviously some of our members got the memo and dressed 
appropriately.
    Secondly, I learned today that a Marine could actually use 
a computer. That was pretty interesting, from the chairman.
    The other that I think technology can do is it can take off 
the 50 pound pack that my 9 year old grandchild has to walk 
around with. And I almost couldn't pick up her pack the other 
day when we picked her up from school.
    I want to start, Mr. Shelton. You are very aware in 
Tennessee--and Mr. Bailey, I will say, we didn't get it all 
wrong all those years before. We did get to the Moon with a 
slide rule. We did invent Penicillin and a bunch of other 
things. So we didn't get it all wrong, all that 100 years.
    But it does need to be changed. There is no question. And 
in Tennessee, we have a gentleman who lives in Greenville, 
Tennessee, Scott Niswonger, who personally took it upon himself 
to improve the educational outcomes of people in rural east 
Tennessee and the mountains.
    And this man funded himself a distance learning program. 
And now the Department of Education, through an i3 grant--I 
think it is $18 million dollars. We have been able to expand 
that.
    And I have absolutely seen the benefits of that. There is 
no question.
    And I want to say something else to Mr. Miller. George--
then President Bush and I think Speaker Boehner recognized that 
low income children--it was not acceptable to say that these 
children couldn't achieve what other kids could.
    So thank you, George. It hasn't worked out exactly right, 
but the concept is correct.
    And I think, Mr. Smith, you have proven that, that we 
shouldn't expect any less. There are some other hurdles and 
challenges. And I am going to ask you about those in a minute. 
But I think you have proven that it can happen.
    And thank you for that leadership torch and putting that 
concept out there.
    What we have done in rural east Tennessee, if you are in a 
small rural high school--one of our high schools has 52 
students. Well, you can take Chinese in there. Some of the 
people where we are think we speak Chinese, from where I am.
    But anyway, you can take French, German, calculus, 
whatever. I visualized a class where the biology class was 
actually talking to a diver in the Great Barrier Reef while 
they were under water; unbelievable things.
    And we have seen obviously the dual enrollment with college 
level classes, with college being so expensive. So this model 
that I have seen in east Tennessee has worked amazingly well.
    But it started with a vision of a private individual, just 
like Mr. Smith, you did.
    And I guess the question I have for you is, how do you pay 
your teachers 30 percent more? And how do you get the best 
teachers?
    That is a challenge we all have. I was the mayor of the 
largest city in my district. And that is a challenge for us.
    Mr. Smith. Yes, it is a challenge for us to. We are always 
looking for great teachers. So if you know some, send them to 
California.
    We have a recruitment team. So we aggressively recruit 
teachers. And we also partner with Teach for America. So we 
have a strong partnership there as well.
    And so that has been really helpful in us finding the 
talent.
    And then your first question, again?
    Mr. Roe. How do you pay? How do you----
    Mr. Smith. Oh, the compensation?
    Mr. Roe. Yes. How do you pay those?
    Mr. Smith. So what we have been able to do is we have found 
that we can change the ratio of students. So we can actually 
serve more students with fewer teachers if we really leverage 
technology.
    And so that is what we have found, is that through 
technology, we can individualize or personalize the learning, 
which allows us to serve more students.
    Mr. Roe. One of the things I found in the personalized 
learning I have seen is that instead of--like we have a TCAP 
scores, Tennessee Achievement Scores. And instead of kids 
getting all in a twit and teachers getting all in a twit when 
May comes, and nobody does anything--we are teaching all that 
stuff.
    You are able to evaluate a child almost weekly. And they 
don't even really know they are being evaluated, which I think 
is much more accurate than a kid sweating a test and the 
teacher worried about that, and they are going to get evaluated 
am I a good teacher or a bad teacher based on what this outcome 
is.
    And I wonder if you had the same experience, that kids--I 
think they do respond to it.
    Mr. Smith. Yes, absolutely. And not only that, I think, to 
your point, it really empowers our teachers, because they know 
what a student is struggling with and then they can figure out 
how to game plan towards that. And so the student is 
successful. And that makes every teacher feel great.
    Mr. Roe. I think the technology now--and the textbook is 
horrendously expensive. And obviously five or six textbooks is 
going to cost more than an iPad or any device. I mean, you can 
get them for $150 now.
    And I wouldn't know why we couldn't transition to that for 
these kids, and get rid of textbooks. I think they are on the 
way out.
    I don't know whether you all do, but I certainly do.
    Mr. Shelton----
    Mr. Smith. I hope so. We could save some money.
    Mr. Roe. Any comments you would have about the northeast 
Tennessee experience?
    Mr. Shelton. Sure. One, it is a great example of where we 
have got all these guys across the country, these great 
examples that wind up being small. And what we have to figure 
out is how we take them to scale.
    And so his initial work set a stage for doing something 
tremendous. And the results have been phenomenal to date, 39 
percent increase in the kids taking college level courses, 
expansion in the foreign languages.
    But now it has actually been evaluated and is something 
that can be expanded across the country. We just need to do 
more of that kind of work.
    Mr. Roe. One last comment.
    Chairman Rokita. I am sorry. The gentleman's time has 
expired.
    Mr. Roe. Yes. And it is the last comment. It is the problem 
in medicine and education, what has held us up, it is the way 
we have always done it.
    Chairman Rokita. Thank you, doctor.
    And now Ranking Member Miller for 5 minutes.
    Mr. Miller. Thank you, Mr. Chairman. I want to thank you 
and Mrs. McCarthy for putting together this hearing. I think 
this is probably one of the most valuable hearings we have had 
in a long time.
    I have always been all about equity. That is why I threw my 
cards in with President Bush and John Boehner--Speaker Boehner 
now--on No Child Left Behind. And I think that the testimony 
here this morning suggests this is the best opportunity to 
provide that equity that we have seen as a nation in our 
history for these children.
    And it is not just providing that equity. It is also their 
ability to take advantage of it. And that is what is really 
exciting.
    Mr. Bailey, you have laid out some of the barriers to 
people trying to hold back the future.
    Mr. Smith, I have been watching you from the East Bay for a 
long time. And your success and the excitement is amazing.
    And the Florida Virtual School, you know, you are 
addressing some of the issues of scale.
    And Mr. Smith, I am watching you on scale, because others 
have gone where you are now treading. And we will see. And I 
say that as a cheerleader, not as being negative.
    But Mr. Shelton, this leads me to you. I have spent a lot 
of time in my many years on this committee, 38, 39 years on 
this committee, talking to DARPA from time to time about what 
they could do to help us in education.
    And before it really was laborious. And it was really a 
problem for them, sort of where to make the insertion to think 
about how you direct this. And they always outlined some very 
simplistic things that they could do that would be helpful.
    But today, this is a very different world in terms of how 
we think about research. We now have data that we have never 
had before. You know, we have big data, whatever the hell they 
are talking about now--in the rest of the world. But it seems 
to me that, for all the reasons maybe Mr. Bailey laid out, our 
research within the department, at the federal level in 
conjunction with the private sector and others, has to be much 
more nimble than we have been in the past. We have got to be 
able to sort of, you know--what is that term when they are 
looking for terrorists who go down a rat hole or something?
    You know, you have got to go where the leads take you. And 
you have to have the flexibility to go there, and also the 
flexibility to say, this isn't working out, let us look over 
here.
    Because here you have it all sort of in front of you. You 
have all the entrpreneurism. You have people trying to ramp it 
to scale and addressing and integrating students who before 
were simply left out. There are a lot of ways to do that. But 
they were being left out.
    I have a school in my district that is named after my 
father for the most profoundly disabled students in our area. 
And yet I am watching technology creep up on these kids and 
getting them ready to go into mainstream schools, and they 
would have never gone there 3 years ago.
    And so I am asking you. I am trying to think about how we 
take education research. I have been working on legislation, 
doing it on a bipartisan, thinking about how you create sort of 
an ARPA-Ed or however--you know, we have ARPA Energy, whatever 
this would be labeled. But that kind of concept that you also 
have the right to fail in looking at these promising 
technologies or promising avenues for schools.
    Because the DARPA has every absolute right to fail and they 
move on. They are not punished. They are given more money to 
fail, because we know that that is sort of what advancement is.
    Mr. Shelton. So, thanks for the opportunity. I mean, the 
great thing about DARPA is they do fail, but they also succeed. 
And when they do, they produce things like the Internet and 
GPS, the Stealth Fighter, the Drone, things that change the 
world forever.
    And so the opportunity that we have--you know, and the 
Department of Defense still spends another $70 billion on 
traditional R&D, because that part is necessary as well.
    DARPA actually gives us a good example of what is possible 
when you do this kind of directed development, particularly in 
education and training. And so I will just do it quickly 
through a story.
    They partnered with the Navy because the Navy was having a 
problem finding I.T. specialists that could actually maintain 
their ships. The good ones that they had for 3 to 5 years were 
too good, and they would get attracted into the private market 
because they would make three times as much money. And the new 
recruits were not actually useful to them when they came out of 
training.
    And the Navy went to the folks at DARPA. And the folks at 
DARPA simply said, well, this is easy. You just have to be able 
to get your kids that come out of the 16 week training to be as 
good as your 5 to 7 year experts.
    A number of years later, they have now done it. And this is 
documented by the Institute for Defense Analysis. They have 
taken cohort after cohort after cohort now of new recruits and, 
in 16 weeks, had them be able to compete successfully on 
knowledge tests, on performance tasks and out on ships, where 
they are competing well with folks that have 17 years of 
experience.
    That is the kind of breakthrough that is possibly, that 
questions everything that we think we know about teaching, 
learning and intellectual potential. And that is the kind of 
work we should be doing every day in education. We can get 
those kind of breakthroughs.
    Mr. Miller. Thank you.
    Thank you, Mr. Chairman. I would like to follow up with you 
on this. And might I ask that--and staff can look it over, but 
I would like to ask permission to insert into the record the 
report ``Raising the Bar: How Education Innovation Can Improve 
Student Achievement,'' by the Alliance for Excellent Education?
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairman Rokita. Without objection, gentleman.
    Mr. Miller. Thank you.
    Chairman Rokita. And gentleman's time has expired.
    We will now hear from Mr. Thompson for 5 minutes.
    Mr. Thompson. Thank you, Mr. Chairman.
    Thanks to the panel for bringing your experiences in 
innovation and technology, because that is so important to the 
future, certainly to education. But it benefits all areas.
    And Mr. Smith, let me say, as a recovering school board 
member, I had that same question Dr. Roe had, in terms of how 
you are able to consistently pay 30 percent more. Thanks for 
answering that question. That was helpful for me to understand 
that.
    You know, one of the things I wanted to look at is, you 
know, right now, today, despite we have record sustained 
unemployment and under employment, but we still have, as I go 
around, manufacturers, businesses and industries that have 
these job openings.
    And these are good paying jobs. These are jobs that, with 
the right kind of training, you can come out of a secondary 
program, some young people can step into. And so obviously I 
think there is a lot out there for business, industry, 
manufacturing. Even service industry have workforce needs.
    And I happen to believe, actually, that applied education 
can be some of the most effective education, when I look at 
kids that are going through career and technical education 
programs.
    But my question--and I will open it up to the panel--is 
what role is the private sector playing--business, industry, 
manufacturer, service industry--in supporting state and local 
school districts to expand their digital and online earnings? 
And I don't just mean access to equipment, technology, capital, 
but also to content, to, in terms of, I think, for me, I just 
see some exciting opportunities for kind of applied learning.
    So why don't we start and we will just----
    Mr. Shelton. Sure. So actually you do see some innovative 
partnerships taking place around the country between employers 
and businesses, trying to build the pipeline, starting as early 
as high school, through either an industry certification or 
through the college system, directly into their most needed 
professions. There just aren't enough of them.
    And they are not producing the resources that allow that to 
happen, the kind of instructional resources, the kind of 
experiential opportunities that people need to have so they can 
be scaled.
    So the big step for us is to figure out how do we actually 
make it easier for businesses to get in this work, and not have 
to do the things that aren't their core business, make it easy 
for them to create the opportunity and then have people help 
them flesh it out into a real educational experience.
    And then how do you build that into a kind like the kind of 
platforms that we have been talking about that can take it to 
scale?
    Ms. Sagues. That is really a great question. One of the 
things we are doing in Florida is we are really ramping up our 
industry certification programs, to try to get kids, you know, 
certified beginning in middle school and then building upon 
that, as they go through high school.
    So we are working very hard to develop and integrate more 
courses that would take students to those industry 
certifications. And we have got, you know, great support at 
both the legislative level and at the private sector level to 
be able to do that.
    So it is coming.
    Mr. Thompson. Mr. Smith?
    Mr. Smith. Yes. In San Jose, we have something called SJ-
2020, which is a measure by the city to eliminate the 
achievement gap by 2020. And so businesses in San Jose and 
Silicon Valley have really invested and stepped up in that 
regard.
    And then I would also say, we have also seen, at least in 
Silicon Valley, a lot of entrepreneurs. So after their 
technology entrepreneurship, are actually engaging in ed-tech. 
So a couple people--Reed Hastings, founder of Netflix, he 
actually bought a company, Dream Box, which has been really 
helpful in kind of showing what is possible for online content, 
especially in the elementary space.
    And then my co-founder, John Danner, has background in 
technology. He is actually going and starting an ed-tech 
company. So we are seeing that more and more. I think that is 
going to be the future.
    Mr. Bailey. Just to agree, but two other examples. I think 
you are seeing this a lot with technology certificates, 
especially with Microsoft, Apple, Cisco, that are working with 
schools as a way of offering these students a chance to engage 
in learning the skills and competencies outlined by these 
certificates and credentials.
    But it is also a way of hooking them and helping them 
understand how math, science and the other subjects that, you 
know, they are expected to know in school, how that is applied. 
So the applied learning I think is crucial. It keeps them 
engaged, but also helps them bring them up to college and 
career ready.
    Second, it is just to build on what Preston said, but we 
are seeing a wave of entrepreneurs and innovators coming out of 
Silicon Valley. Folks that gave us Google and Amazon and 
services that we all use every single day are now turning their 
sights and helping to problem solve challenges that teachers 
are facing, students are facing, and schools are facing.
    So I think that also ties a little bit into what Jim and 
Congressman Miller were talking, too, about the R&D. But there 
is a flood of innovation coming out from people that want to 
solve and tackle education challenges. And it is great. We 
should be welcoming that and encouraging that.
    Mr. Thompson. I will just close with a quick assumption. I 
know it is not safe to make any kind of assumptions. But, you 
know, we are talking about computers and iPads. I have to 
wonder whether the future of accessing this are, you know, kids 
with smartphones, you know, which--and not all children have 
access to that. I recognize that.
    But those who do and as more have them, that is something 
they carry with them all the time. And they are very good at 
using them.
    So thank you.
    Chairman Rokita. Gentleman's time has expired.
    Mr. Scott is recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    I want to thank all of our witnesses for being with us.
    Mr. Shelton, I want to follow up on the gentleman from 
California, our ranking member's question about R&D. I assume 
some of this stuff that is out there is effective and some is 
not effective. What is the Department of Education doing to 
make sure that local school boards get the right stuff?
    Mr. Shelton. Yes. I mean, one of the most important things 
overall that we have tried to do is to actually set a frame for 
saying, look, we have to be in the business of getting what 
works in the hands of our teachers and students, and that we 
need to get better at building an infrastructure that allows us 
to figure those things out more quickly and make it more 
transparent to the folks who are making decisions, be they 
school boards, be they superintendents, be they teachers.
    And so we have done two things. One is to set up a policy 
framework and a grant program structure that allows for that to 
happen. That is the basic outlines of the i3 program.
    But the second thing is to work with IES to very 
specifically build out their infrastructure to better populate 
the What Works Clearinghouse.
    And then the third is to make these resources available to 
folks on the outside, and train them how to do the kinds of 
evaluations that you need to figure out how things are working.
    I want to end on this point by saying, the good news for us 
in the space of learning technology is that the technology 
itself and the data that is the natural exhaust of doing this 
work creates unprecedented opportunities for evaluating them 
that we haven't had before. We can figure out much more quickly 
what works, what doesn't work, and what works in comparison to 
what, and what works for whom and in what context.
    All of those are questions that we had to guess at before 
or went by ideology. We can now answer them empirically.
    Mr. Scott. And you have that information available?
    Mr. Shelton. It is not available. These are the things that 
are being developed as people introduce products to the field 
and as people evaluate them and they evaluate themselves.
    Mr. Scott. Now how much of this software is proprietary and 
how much of it is open source?
    Mr. Shelton. Right now, the market is still emerging. There 
is a good amount of open and free content that is available. 
There is a significant amount--obviously all of the existing 
publishers still have offerings that are somewhat online or 
some blended in some technology. And there are the 
entrepreneurs that we talked about.
    I couldn't give you exact percentages. But it is still 
playing out.
    Mr. Scott. And is this way of teaching taught in colleges 
as we train our teachers? Or do teachers need professional 
development to catch up?
    Mr. Shelton. Teachers need professional development to 
catch up. That is new teachers and that is existing teachers. 
Just as doctors when the new technology comes out, when the MRI 
was introduced, when the electronic health records were 
introduced, had to figure out how to use those tools, our 
teachers need to be trained to use those tools that they are 
introduced as well.
    And once they are trained well, and frankly when the 
products are well designed, they find them empowering and they 
embrace them. And it allows them to do things they were never 
able to do before.
    Mr. Scott. Thank you.
    Ms. Sagues, your school is totally online?
    Ms. Sagues. Yes, sir. It is.
    Mr. Scott. Can you comment on whether or not there is a 
loss in socialization amongst your students?
    Ms. Sagues. That is a wonderful question. And I would be 
happy to address it. We have a lot of different ways for 
students to interact, both online and then also in a face-to-
face environment. So our school has a whole bunch of clubs, a 
lot of clubs that you would find in a traditional school. And 
our students will get together, you know, regionally for 
various types of field trips and things like that.
    But in addition to that, students today are so socially 
active outside of the regular school day. For example, we serve 
a lot of home school students. And they are very, very active 
within their home school organizations.
    We also have laws. Laws have been passed in Florida where 
any student who is an online student can go back to their 
regularly zoned school and participate in all of the sports, 
any club. They can go to the prom. They can do all of those 
things within their local community as well.
    Mr. Scott. Thank you.
    Mr. Smith, you have talked about reducing the achievement 
gap and alluded to the possibility of an expanded achievement 
gap based on access to technology. Do you work with the 
community groups like Boys and Girls Clubs and libraries, to 
make sure that students do have access to technology?
    Mr. Smith. Yes. We partner with local groups. I think that 
is a really important avenue.
    Mr. Scott. And what else can be done to make sure that all 
students have access?
    Mr. Smith. Yes, I think a couple things that really gets to 
access in terms of price point, so for the device and then also 
the wifi connectivity. And as Mr. Bailey referenced, E-Rate, so 
I think there is some real potential there to expand that 
program or to use it in a way that would increase wireless 
access in local communities, especially low income communities.
    Mr. Scott. You pay your teachers more. Are you able to hire 
better teachers?
    Mr. Smith. That is our hope. That is what we are trying to 
do. So yes. Yes.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Rokita. The gentleman's time has expired.
    We will now hear from Mrs. Roby for 5 minutes.
    Mrs. Roby. Well, good morning. I am so excited about this 
hearing today. It aligns quite nicely with initiatives that we 
are taking in my home state of Alabama. And the State 
Department of Education in Alabama just recently recognized 
February is our digital learning month.
    And so they are celebrating the innovative teaching and 
highlighting digital learning. And so thank you for what you 
are doing to expand upon that.
    And I have to say as a parent, Margaret, my daughter, she 
is in second grade. And I opened her backpack the other day and 
the fundraising materials had been sent home about raising 
funds for the iPads for her school. So it is just exciting to 
see how all this is evolving in her little school in Montgomery 
County Public Schools, but also throughout the country.
    So I am really excited.
    Mr. Bailey, you referenced the standard, one size fits all 
education doesn't fit today's generation of students. And I 
wholeheartedly agree with you. And I think that what I would 
like to discuss or hear from you are what policy obstacles and 
federal burdens exist at the state level, that prohibit the 
expansion of the technologies.
    Mr. Bailey. Thanks. It is a great question. And it is a 
couple different sort of policies. One is, again, you have a 
lot of proxies for quality. So the whole idea of class size 
restrictions and making sure that it is only one teacher for 
every 25 kids or 30 kids is a way of trying to help get at--it 
is a proxy for sort of quality, in many ways, and doesn't fully 
sort of recognize what Preston was talking about here in terms 
of a lot of these blended learning schools, you can actually 
have more students in a class with a teacher, but it doesn't 
mean that that teacher is just lecturing to an entirely large 
class.
    What is usually happening is that the technology is 
constantly assessing the students, and then giving some 
students individualized activities to pursue on their own with 
a computer. Some students are actually not using a computer but 
going off and doing small group instruction. And then a whole 
other group of students are getting flagged that need more one-
on-one time with teachers.
    So again, addressing some of these class size restrictions 
are really helpful. Anything that deals with the awarding of 
credit seems to be getting in the way of a lot of these new 
models, too. And it is because sometimes you have students, 
especially in the gifted area, that can pursue materials or 
actually progress faster than what their classmates are. But 
they are sort of held back because they can't demonstrate, the 
end of year exam can't be taken in December or January.
    So, you know, what we have is a system that sort of awards 
credit based on time, not based on learning. And there is a lot 
of states and school districts wanting some freedom from those 
regulations to look at ways of awarding credit when the student 
can demonstrate that they know the material and progress on to 
higher level or send it at a faster pace.
    And I am sure Preston and others have a couple ideas.
    Mrs. Roby. Well, and that is great, because what I am 
getting at is, as we meet towards the reauthorization--you 
know, the committee of the whole--for No Child Left Behind, how 
can we remove obstacles that exist in the current legislation 
that would allow for you to expand. So if anybody else wants to 
weigh in specifically about that, please do.
    Mr. Shelton. I was going to say, at the federal level, 
there is not a lot that happens around the caps and things like 
that. It all happens at the state level.
    I think one of the things that we need to encourage people 
to look at is how to think about new accountability systems. 
Because those new accountability systems can actually allow 
them to give more freedom. We don't have to wait until 
attendance counts and end of year assessments and things like 
that to know whether students are in school, whether they are 
making progress, whether their activity levels are high, 
whether they have mastered anything.
    Florida Virtual Schools has a model where they get paid 
when the students demonstrate that they have learned. If we 
shifted to those kinds of models and encouraged those kind of 
models from the federal level, we might see a lot better 
accountability, and a lot more freedom for our people to 
innovate, because people would feel comfortable that the safety 
nets were there.
    Mrs. Roby. Great.
    And Mr. Smith, real quickly, the yellow light is on. I just 
want to focus in a little bit on how do you motivate your 
teachers? I know that we touched on this. But you said, as I 
was walking in, you were talking about how new things sometimes 
scare people. And talk about how you motivate your teachers to 
get comfortable with this technology.
    And then I heard Mr. Shelton say that you tend to see, once 
they get it, they run with it. But, you know, the new can 
oftentimes, there can be resistance because it is new.
    Mr. Smith. Yes, no, it is a big change management process. 
We are actually in the middle of actually more integrating our 
instructional online programs into the classroom. So we are in 
the middle of this at Rocketship.
    So what process we are using is more kind of piloting 
things, so starting it small, having teachers come and observe, 
having focus groups where they are giving input, and really 
kind of gradually getting the experience of it. Before, we 
would just kind of go whole hog.
    And we have found that that has been really, really pretty 
positive, and it helped us gain momentum. But it does take kind 
of a gradual incubation, letting them kind of experience it. 
And then also I think when they see the power with kids, right, 
nothing is a greater joy for a teacher than when you actually 
succeed and you see a kid gets it.
    So I think with this personalized learning, when they see 
they can have such a powerful effect no so many students, and 
in the same day you can hit one small group to one-on-one, it 
is really powerful. And I think that really captures our 
teachers.
    Chairman Rokita. The gentlewoman's time has expired.
    Mrs. Roby. Thank you, Mr. Chairman.
    Chairman Rokita. Mr. Polis for 5 minutes.
    Mr. Polis. Before my time begins, Mr. Chairman, I wanted to 
inquire if there is going to be time for a second round of 
going through our panel?
    Chairman Rokita. No, sir.
    Mr. Polis. Okay. Then I will begin my time. And I want to 
make sure the clock has not begun yet, because I am just 
beginning and I am going to need every moment.
    So first I want to thank the panel. Thank you. This is a 
very exciting way to start off the new session. It is exactly 
why I am so honored to be back on the committee. And what a 
wonderful subject.
    So I want to start. I am going to focus on the federal role 
in this. Obviously we are federal legislators.
    So I want to start with a question about how important is 
ESEA reauthorization, specifically around accountability? How 
important is it that we replace I think what we all acknowledge 
kind of failed AYP model with an updated model at the federal 
level, which presumably would include progress over time and 
other indicators?
    I would like each of you to answer. And I would like you to 
say, if you can, ``very important,'' ``somewhat important,'' or 
``not important'' that we replace ESEA's accountabilities 
provisions.
    Mr. Bailey, ``very important,'' ``somewhat important,'' or 
``not important?''
    Mr. Bailey. Very important.
    Mr. Polis. Okay, Mr. Smith?
    Mr. Smith. Very important.
    Mr. Polis. Ms. Sagues?
    Ms. Sagues. Very important.
    Mr. Polis. And Mr. Shelton?
    Mr. Shelton. Yes.
    Mr. Polis. Okay. Thank you. And again, in terms of looking 
at the federal role, this is clearly one where we have, I 
think, broad acknowledgement that we had a poor accountability 
model. Many would say it might be better than no accountability 
model. That is a separate discussion.
    But we have one that I think policy makers on both sides of 
the aisle can replace. We have seen states lead the way under 
the waiver process. We have some great information out there. 
It really is critical.
    I want, you know, based on your input, an answer to that 
question, that our committee work on the ESEA reauthorization, 
so that we can have a better accountability model.
    Now I want to go to Mr. Bailey about specifically some of 
the barriers that you identified, limitations, outdated 
regulation and finance. So many of these reside at the state 
and local level. There is some perhaps of the finance piece 
that reside at the federal level. But limitations, outdated 
regulations are state and local.
    I wanted to ask about your opinion of, at the federal 
level, programs like Race to the Top, that help reduce and 
encourage states to reduce some of these limitations and 
outdated regulations, as well as other things that the federal 
government might be able to do to encourage states and 
districts to reduce some of those limitations, outdated 
regulations that prevent your success.
    Mr. Bailey. So I think it is a great question. And I think 
some of Race to the Top is a good model, because Race to the 
Top created incentives for states to lower barriers, 
particularly around charter schools. But what it did not do is 
sort of--again, it just focused on charter schools. It left out 
all these other sort of new models coming out, with blending 
learning, with online learning and virtual schools and so 
forth.
    So states could eliminate all the barriers to charter 
schools. But if they kept the caps on for a virtual school or 
an online program, they could still sort of compete. So it is a 
chance to, again, sort of capture state attention and drive 
some innovation there too.
    I think your question around accountability with ESEA is 
actually a good example too of the caution of legislating and 
giving room for innovation, that, you know, back when No Child 
Left Behind was signed into law, you only had two or three 
states that could actually calculate growth models. And there 
was no flexibility built into the law to allow growth and other 
sort of state innovations to be, you know, included in the 
accountability systems as technology sort of offered it.
    So I think the key for reauthorization is how do you build 
in some flexibility, that as technology drives new ability to 
do accountability or pay for performance with programs, that 
that is allowed to be incorporated.
    Mr. Polis. And I want to go to Mr. Smith and ask about the 
federal role in his, in the inception and the expansion of your 
work, Title V specifically, and how that plays into your start 
and how that plays into your expansion.
    Mr. Smith. Yes. I am glad you brought that up. It has been 
critical. And I think Title V has been critical really to 
incubating other kind of entrepreneurs and new ideas in 
education. So it is critical.
    Mr. Polis. And part of what we do through the All-STAR Act, 
which I introduced last session, will do again, as well as the 
Charter School Reauthorization that passed the House 
overwhelmingly, with a bipartisan majority, is it looked at the 
Title V expenditures and said, not only will they help support 
this critical role of experimentation, what Mr. Miller referred 
to, and trying different things, not being afraid to fail, but 
also would allow replication and scaling of successful models.
    So would it help you scale and replicate faster if there 
were some part of Title V funds that were available for 
replication and scaling up proven success?
    Mr. Smith. Absolutely. It is actually one of the conditions 
that we look at when we are looking at different states and 
cities that approach us and ask us to come.
    Mr. Polis. And let us say that there is a state that has 
not received Title V, like Nevada, for instance. Would that 
make it less likely you would go to that state?
    Mr. Smith. Absolutely. If it is missing, we ask local 
funders to make up the gap, which is significant.
    Mr. Polis. And what do you think of this concept that 
perhaps school districts ought to be able to directly do it or 
chartered entities? Or there ought to be some set aside at the 
federal level for interstate efforts that affect several 
states?
    Mr. Smith. I think it would be really great exactly for the 
reason you just mentioned in Nevada.
    Chairman Rokita. Gentleman's time has expired.
    I will recognize myself for 5 minutes to ask a few 
questions. I really appreciate the conversation. I think all 
the members did. Thank you very much.
    One of the other committees I sit on is the Budget 
Committee. And so my ears really perked up when I heard Mr. 
Shelton talk about the misdirected investment. He said a 0.2 
percent increase in investment in technology. Did I get that 
right?
    Mr. Shelton. Actually, what I said is relative to other 
sectors, we under invest in R&D. We spend about 0.2 percent on 
R&D in education technology. That is about one tenth of what 
any mature industry spends or any----
    Chairman Rokita. Okay. So you were talking industry wide. 
You didn't mean the Department of Education budget?
    Mr. Shelton. Absolutely not.
    Chairman Rokita. Okay. All right, moving right along then. 
And do the other three of you have a comment on that, about R&D 
in the sector?
    Agree, disagree?
    Mr. Bailey. Just, I think R&D is coming from all different 
angles. Again, you have new entrepreneurs coming in, trying out 
new models as nonprofits, as for-profit providers. And just I 
think it is creating an ecosystem of R&D.
    The federal role definitely has a role with IES and others 
and some of their experimental grants. But it is also creating 
the space, room for schools and charter schools to try 
something, fail. And if it fails, it is okay. Shut it down and 
scale the high performing policy.
    Chairman Rokita. Do you see a future where there would be 
something like what we call three Ps, public/private 
partnerships, somewhat what we are doing now more and more with 
roads? Do you see that model working here?
    Mr. Bailey. Absolutely. I think it is critical. It is the 
way we tackle social challenges from health care to clean tech 
energy. We need to do that more in education as well.
    Chairman Rokita. So another thing that I was wondering 
about, and I have wondered about it before, but I am reminded 
as I hear Ms. Sagues' testimony and yours, Mr. Bailey, this 
idea of what I call critical thinking. And you may have a 
professional term for it.
    But as I grew up, the idea that I was taught, especially in 
the later years, to problem solve, to look at the idea of being 
taught to think versus just being sent and receiving content. I 
clearly see, whether it is Mr. Khan's videos that I have seen 
or other situations--which are excellent, by the way. It is 
great for review, for getting content, those kind of things.
    How do you teach critical thinking in a virtual world? Ms. 
Sagues?
    Ms. Sagues. That is really a great question. So the way our 
courses are set up, they are very project based. So students go 
in and they do sort of authentic projects in a lot of different 
areas. And they work very closely. We have what we call a high 
tech, high touch environment, where the teachers and the 
students work very closely together.
    And our teachers actually, on a monthly basis, have to do 
what is called a discussion based assessment with our students. 
And they get into a very deep conversation about the content, 
deeper than what you can actually, you know, assess through a 
typical online assessment.
    So we have a variety of different ways that we really try 
to dig in and get to that level with the students. And with the 
Common Core coming on board, that is exactly the shift you are 
going to see all across the country with the way content is 
going to be, you know, redelivered to students.
    Chairman Rokita. Common Core, perhaps another hearing.
    Mr. Bailey, any add on to that? Quickly.
    Mr. Bailey. Just one, that I think you are seeing this new 
model coming out. It is not pure blended learning, but it is 
called the flip classroom. And it is rethinking the use of 
time. So students, instead of doing homework at night, are 
watching the videos and the lectures at night. And then they 
are coming into the classroom and that is where you get some of 
the critical thinking.
    Because now, instead of the teacher having to lecture, they 
are able to jump right into classroom discussion, small group 
discussion, and sort of test out the reasoning and the thinking 
around that.
    Chairman Rokita. And not to leave Mr. Smith out, real 
quick? Because I got some other stuff. Anything to add? Okay.
    But completely online wouldn't be as good as blended, 
though, for critical thinking. You disagree.
    Ms. Sagues. Well, I think that there are--I don't, let me 
just frame up the question maybe a little bit differently. I 
think there are times when online is absolutely the best way 
for critical thinking.
    Chairman Rokita. Okay.
    Ms. Sagues. And I think there are times when perhaps a 
blended model. And I think it depends on the student as well. 
So that is kind of the whole joy around the whole personalized 
learning for students, because now with technology, we can 
really dig in and discover how each child learns best, and then 
provide them with the tools that they need.
    Chairman Rokita. And what is the make up of your virtual 
school in terms of low income students? Did you say? I forgot.
    Ms. Sagues. In our part time schools, our low income 
students run right about 40 percent. And in our full time 
school, we are about 48 percent.
    Chairman Rokita. Thank you.
    In what time I have remaining, I will try to be quick. Mr. 
Shelton, D.C. Opportunity Scholarship Program, I am sure you 
knew we were going to be interested in that. The principle 
investigator who wanted to do the review said that you need 700 
more students. We don't have that. We have about 300 now.
    What is the department doing to increase that number, so 
that we can get a grade here?
    Mr. Shelton. Sure. So we have worked really hard with the 
Children and Youth Investment Trust, which is the grantee, to 
put together a new recruitment and outreach strategy, so that 
they could actually recruit the number of students that are 
required, and also to streamline their processes around 
figuring out whether students are actually eligible for the 
program, because they actually have a significant amount of 
attrition.
    They had some staffing changes. So they have I think a 
couple of bumps in the road on the recruitment this year. But 
their numbers are up over last year. And we will see what 
happens.
    Chairman Rokita. Any internal deadline to set for 
yourselves?
    Mr. Shelton. So we extended the deadline for the trust to 
be able to both calibrate their new applicants as well as get 
the renewals in place, in order to get the numbers up.
    Chairman Rokita. Thank you.
    My time has expired. Excuse me, I offer the microphone to 
Mrs. McCarthy for the purpose of closing remarks.
    Mrs. McCarthy. Thank you, again, Mr. Chairman, for holding 
this hearing. It was very informative.
    And I want to thank all the witnesses. You know, from some 
of us that, yes, came into the computer world after 50, I am 
amazed on how fast I actually was able to learn it. But 
certainly looking at my grandchildren, when I got an iPad, that 
is who I went to to teach me how to use my iPad.
    But I am getting there.
    But I want to thank you again. And I truly am encouraged by 
some of the initiatives nationwide that are helping to involve 
our educational system. We have to come into the 21st century.
    Today's global economy demands it. New and diverse skill 
sets from our professionals--and we need to invest in our 
children's equally to prepare them.
    This Congress must make a commitment to updating and re-
authorizing the Elementary and Secondary Education Act. Each 
day, each month, each year passes by without reauthorization is 
another day, another month and another year that this country, 
in my opinion, is failing our children.
    I agree with our witnesses that we can not have 20th 
century ideas covering 21st century classrooms. Our federal 
government must be flexible, and eligible successful local 
programs to grow and exceed all expectations.
    I am looking forward certainly to continue our work on this 
subcommittee to help provide more options to our nation's 
students.
    I want to thank the chairman again. And I yield back.
    Chairman Rokita. I thank the gentlelady. I want to thank 
all the witnesses again for your time today, as well as the 
committee members for participation. I think it has been an 
excellent hearing.
    Thank you for making it easy on me, being my first hearing 
as a chairman. [Off mike comment.] [Laughter.]
    I will have no comment on that comment. As we wrap up, I 
just want to get one little thing on the record. And this goes 
to the line of questioning I had with Mr. Shelton. And again, I 
thank you, sir, for being here.
    I don't know if you know. I am sure you have been briefed 
perhaps. We sent a letter about D.C. Scholarship. And we asked 
for a meeting, a meeting with staff to go over budgets and 
those sorts of things.
    And we asked for a meeting by February 22nd. So I know that 
is coming. We haven't heard back from anybody. And we can't do 
our oversight job----
    Mr. Shelton. I will check on it and get back to you.
    Chairman Rokita. Thank you very much. When will you get 
back to us? [Laughter.]
    Mr. Shelton. Today is Thursday? By tomorrow morning.
    Chairman Rokita. Yes, sir. I like how you work, sir. Thank 
you very much.
    And again, thank all the witnesses. I learned a lot today. 
And I appreciate your leadership in this sector, in this 
community, what you are doing for our future. It is our most 
precious asset. And you are all to be commended.
    Thank you.
    The hearing is now closed.
    [Whereupon, at 11:27 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
